No. 21-___
In The

Supreme Court of the United States
___________________________________________________________________________

JANE DOE,

Petitioner,

v.
FACEBOOK, INC.,

Respondent.

___________________________________________________________________________

On Petition for Writ of Certiorari to
the Supreme Court of Texas

___________________________________________________________________________

PETITION FOR WRIT OF CERTIORARI
___________________________________________________________________________

ANNIE MCADAMS
ANNIE MCADAMS PC
1150 Bissonnet Street
Houston, TX 77005

WARREN W. HARRIS
Counsel of Record
WALTER A. SIMONS
BRACEWELL LLP
711 Louisiana St., Suite 2300
Houston, TX 77002
(713) 221-1490
warren.harris@bracewell.com

DAVID E. HARRIS
JEFFREY H. RICHTER
SICO HOELSCHER
HARRIS LLP
802 N. Carancahua
JEFFREY M. HARRIS
Suite 900
TAYLOR A.R. MEEHAN*
Corpus Christi, TX 78401 CONSOVOY MCCARTHY
1600 Wilson Blvd., Suite 700
Arlington, VA 22209
*Licensed in Illinois & D.C.;
Virginia bar application pending.

Counsel for Petitioner

i
QUESTION PRESENTED
The Jane Doe plaintiff in this case was sex trafficked as a minor because Facebook’s products connected her with a sex trafficker. The trafficker sold
her for sex, allowing men to serially rape her in exchange for money. She was rescued by law enforcement and now seeks to hold Facebook accountable
through this action alleging common-law and statutory claims under Texas law.
Facebook asserts that it is completely immune
from this suit under Section 230(c)(1) of the Communications Decency Act (“CDA”), which provides that
“[n]o provider or user of an interactive computer service shall be treated as the publisher or speaker of any
information provided by another information content
provider.” The Texas Supreme Court concluded that
this provision granted Facebook sweeping immunity
on all but one of Petitioner’s claims. The court felt
constrained by existing precedent to reach that holding, but also emphasized that it expected this Court
to conclusively address Section 230’s reach. The question presented is:
Does Section 230 of the Communications Decency
Act provide immunity from suit to internet platforms
in any case arising from the publication of third-party
content, regardless of the platform’s own misconduct?

ii
PARTIES TO THE PROCEEDING
Petitioner in this Court, Real Party in Interest before the Texas Supreme Court and the Texas court of
appeals, is a Jane Doe plaintiff in the trial court in
Cause No. 2018-69816.
Respondent, Relator before the Texas Supreme
Court and Texas court of appeals, and Defendant in
the trial court, is Facebook, Inc.

iii
STATEMENT OF RELATED PROCEEDINGS
This petition arises from:
In re Facebook, Inc., 625 S.W.3d 80 (Tex. 2021)
(opinion issued June 25, 2021)
In re Facebook, Inc., 607 S.W.3d 839 (Tex. App.—
Houston [14th Dist.] 2020) (opinion issued
Apr. 28, 2020)
Jane Doe v. Facebook, Inc., et al., No. 2018-69816
(334th Dist. Ct., Harris Cty., Tex.) (order signed
May 23, 2019)
There are two related proceedings involving similarly situated Jane Doe plaintiffs that were addressed
in the Texas appellate court opinions, but the other
two Jane Doe plaintiffs are not petitioners in this
Court. The related proceedings are:
Jane Doe v. Facebook, Inc., et al., No. 2018-82214
(334th Dist. Ct., Harris Cty., Tex.) (order signed
May 23, 2019)
Jane Doe v. Facebook, Inc., et al., No. 2019-16262
(151st Dist. Ct., Harris Cty., Tex.) (order signed
Oct. 4, 2019)
Petitioner is not aware of any other proceedings
in state or federal courts directly related to this case
within the meaning of Rule 14.1(b)(iii).

iv
TABLE OF CONTENTS
PAGE
QUESTION PRESENTED ........................................ i
PARTIES TO THE PROCEEDING .......................... ii
STATEMENT OF RELATED PROCEEDINGS ..... iii
TABLE OF AUTHORITIES .....................................vi
PETITION FOR WRIT OF CERTIORARI ................1
OPINIONS BELOW...................................................3
JURISDICTION .........................................................3
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ........................................4
STATEMENT OF THE CASE ...................................5
A. Facebook Facilitates Online Human
Trafficking
By
Creating
Connections Between Traffickers
And Their Victims...................................5
B. Petitioner Was Sex Trafficked As A
Minor Because Of Facebook’s
Products ..................................................7
C. Proceedings Before The Trial Court ......8
D. Proceedings Before The Court Of
Appeals And Texas Supreme Court .......8
REASONS FOR GRANTING CERTIORARI ..........12
I.

This Court Should Grant Certiorari To
Address The Proper Scope Of Section
230 Of The Communications Decency
Act. ...............................................................12

v
TABLE OF CONTENTS
(continued)

PAGE

A. Courts
Have
Erroneously
Interpreted Section 230 To Provide
Internet Platforms With NearCategorical Immunity From Suit. ........12
B. As Several Judges And Scholars
Have Recently Recognized, The
Prevailing Interpretation Of Section
230 Is Not Supported By The
Statute’s Plain Text. .............................19
C. The Texas Supreme Court Erred By
Deferring
To
Misguided
Jurisprudence Interpreting Section
230 To Create Broad Immunity,
Rather Than Construing The
Statute As It Is Written........................26
II. The Proper Interpretation Of Section
230 Presents A Critical Question of
Federal Law Whose Importance Has
Increased Exponentially In The Decades
Since Its Enactment. ...................................33
CONCLUSION .........................................................36
APPENDIX ...............................................................37

vi
TABLE OF AUTHORITIES
PAGE(S)
CASES
Barnes v. Yahoo!, Inc.,
570 F.3d 1096 (9th Cir. 2009).............................. 27
Chi. Lawyers’ Comm. for Civil Rights
Under Law, Inc. v. Craigslist, Inc.,
519 F.3d 666 (7th Cir. 2008)................................ 27
City of Chicago v. StubHub!, Inc.,
624 F.3d 363 (7th Cir. 2010)................................ 27
Cox Broad. Corp. v. Cohn,
420 U.S. 469 (1975)................................................ 3
Doe v. Internet Brands, Inc.,
824 F.3d 846 (9th Cir. 2016)................................ 28
Doe v. MySpace, Inc.,
528 F.3d 413 (5th Cir. 2008)...................... 9, 16, 26
Fair Hous. Council of San Fernando
Valley v. Roommates.Com, LLC,
521 F.3d 1157 (9th Cir. 2008).............................. 12
Force v. Facebook, Inc.,
934 F.3d 53 (2d Cir. 2019), cert. denied,
140 S. Ct. 2761 (2020)........ 17-18, 22-24, 28, 30-31
Gonzalez v. Google LLC,
2 F.4th 871 (9th Cir. 2021) ............18, 23-24, 31-34

vii
TABLE OF AUTHORITIES
(continued)

PAGE(S)

Herrick v. Grindr,
765 F. App’x 586 (2d Cir.), cert. denied,
140 S. Ct. 221 (2019).......................................16-17
HomeAway.com, Inc. v. City of Santa Monica,
918 F.3d 676 (9th Cir. 2019).......................... 27, 32
Jane Doe No. 1 v. Backpage.com, LLC,
817 F.3d 12 (1st Cir. 2016) .............................. 9, 16
Malwarebytes, Inc. v. Enigma Software
Grp. USA, LLC,
141 S. Ct. 13 (2020)... 9, 13-16, 19-22, 29-30, 35-36
Nemet Chevrolet, Ltd. v.
Consumeraffairs.com, Inc.,
591 F.3d 250 (4th Cir. 2009)................................ 26
Reno v. Am. Civil Liberties Union,
521 U.S. 844 (1997).........................................12-13
Stratton Oakmont, Inc. v. Prodigy Servs. Co.,
1995 WL 323710 (N.Y. Sup. Ct.
May 24, 1995)................................................. 13, 20
Zeran v. America Online, Inc.,
129 F.3d 327 (4th Cir. 1997)..................... 15-16, 19
STATUTES
28 U.S.C. § 1257(a)...................................................... 3
47 U.S.C. § 230(b)(3)-(4) ............................................ 13

viii
TABLE OF AUTHORITIES
(continued)

PAGE(S)

47 U.S.C. § 230(c)(1).......................................... passim
47 U.S.C. § 230(c)(2)............................14-15, 21, 28-30
Telecommunications Act of 1996,
Pub. L. 104-104, 110 Stat. 56 .............................. 12
Tex. Civ. Prac. & Rem. Code Ann. § 98.002(a)........... 8
OTHER AUTHORITIES
141 Cong. Rec H8469-72 (Aug. 4, 1995) ..............13-14
164 Cong. Rec. S1830 (Mar. 20, 2018)...................... 34
Danielle Keats Citron & Benjamin Wittes,
The Internet Will Not Break: Denying Bad
Samaritans § 230 Immunity, 86 Fordham
L. Rev. 401 (2017) .......................................... 25, 35
H.R. Rep. No. 104-458 (1996) ................................... 14
Mary Graw Leary, The Indecency and Injustice
of Section 230 of the Communications
Decency Act, 41 Harv. J.L. &
Pub. Pol’y 553 (2018) ................................. 5, 25, 33

PETITION FOR WRIT OF CERTIORARI
Petitioner was a minor who became a victim of sex
trafficking through Facebook’s products. Petitioner
brought claims against Facebook arising out of Facebook’s operation of its social media platforms, including its use of algorithms to facilitate connections between sex traffickers and their victims. The Texas
Supreme Court held that all but one of Petitioner’s
claims were barred by Section 230 of the Communications Decency Act.
Section 230 was enacted in the early days of the
internet to protect children from obscene materials
online and to enable websites to assist in that effort
without fear of liability. In relevant part, Section 230
provides that “[n]o provider or user of an interactive
computer service shall be treated as the publisher or
speaker of any information provided by another information content provider.”
In the decades since its enactment, the prevailing
interpretation of Section 230 has strayed far from its
origins and text. In applying Section 230, courts have
refused to follow a literal reading of the statute’s plain
language, rarely considering whether a given claim
requires a defendant to be “treated as the publisher”
of third-party information. Instead, courts have
looked beyond the statute’s words to divine its “policy”
and “purpose,” holding that Section 230 affords internet platforms sweeping immunity from suit in any
case that “arises from” the publication of third-party
information. This atextual interpretation has led to
outright dismissal of nearly all claims against internet companies, shielding them from participating in
discovery and making it practically impossible for
plaintiffs to hold them accountable for their actions—
with devastating results. Internet companies have

2
been immunized from allegations of such serious
wrongdoing as promoting terrorist content and facilitating sex trafficking. Based on this wayward interpretation of Section 230, internet companies have
been granted expansive immunity from the consequences of their own misconduct and failures to act.
A growing chorus of dissenting voices has recently
called into question whether the near limitless immunity internet platforms currently enjoy is consistent with Section 230’s plain meaning. In particular, a number of jurists have expressed skepticism
about whether internet platforms should be afforded
such sweeping immunity under Section 230 when, as
here, they take affirmative steps that contribute to
the plaintiff’s injuries.
Although the Texas Supreme Court recognized
that a more narrow textual reading of Section 230 was
plausible, the court deemed itself constrained by the
“settled expectations associated with the prevailing
judicial understanding of section 230.” Pet.App.23a.
The court emphasized that it expected this Court to
ultimately resolve the important and recurring questions about the scope of Section 230. Pet.App.20a.
The proper interpretation of Section 230 is long
overdue for this Court’s plenary review. Section 230
has now been addressed by every U.S. court of appeals, in addition to many other lower courts. The
prevailing understanding of Section 230 has broadly
immunized defendants from civil liability based on little more than the bare fact that the company does
business through the internet. The internet plays an
inextricable role in the daily lives of people worldwide,
far greater than when Section 230 was enacted in
1996. Section 230 itself has an outsized influence on

3
modern commerce, in which internet-based companies are some of the largest and most powerful in the
world and have far-reaching impacts on their users,
yet have little or no accountability. Questions about
Section 230’s scope are exceptionally and indisputably
important, especially given that the prevailing “policy
and purpose” interpretation has shut down wide
swaths of civil litigation challenging serious wrongdoing by social media companies and other internet platforms. Plenary review is warranted.
OPINIONS BELOW
The Texas Supreme Court’s opinion is reported at
625 S.W.3d 80, and reproduced at Pet.App.1a-43a.
The court of appeals’ opinion is reported at 607 S.W.3d
839, and reproduced at Pet.App.44a-49a. The trial
court’s opinion is reproduced at Pet.App.50a-54a.
JURISDICTION
The Texas Supreme Court issued its decision on
June 25, 2021. This Court has jurisdiction under 28
U.S.C. § 1257(a). Although one of Petitioner’s claims
was allowed to proceed, the Texas Supreme Court
held that Section 230 categorically barred all remaining claims. This Court accordingly has jurisdiction to
review the Texas Supreme Court’s resolution of this
important federal question. See Cox Broad. Corp. v.
Cohn, 420 U.S. 469, 480 (1975) (this Court has jurisdiction under Section 1257 where “the federal issue,
finally decided by the highest court in the State, will
survive and require decision regardless of the outcome of future state-court proceedings”).

4
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
This case concerns the application of Section 230
of the Communications Decency Act, 47 U.S.C. § 230.
The full text of Section 230 is reproduced at
Pet.App.55a-60a.

5

STATEMENT OF THE CASE
A. Facebook Facilitates Online Human
Trafficking By Creating Connections Between Traffickers And Their Victims
Human trafficking is an epidemic with devastating impacts on both individual survivors and communities at large. MR1. 1 Human trafficking is now the
fastest growing criminal enterprise in the world.
Mary Graw Leary, The Indecency and Injustice of Section 230 of the Communications Decency Act, 41 Harv.
J.L. & Pub. Pol’y 553, 555 (2018). The growth of human trafficking is largely attributable to the use of the
internet to facilitate the sale of human beings for sexual abuse. Id. The internet has exponentially increased the opportunities for sex trafficking, especially trafficking of children. MR17-18, 21. Social media platforms in particular have been increasingly
used to contact, recruit, and sell children for sex.
MR12-13, 17-18, 21. Social media provides unrestricted access to minors for predators to target.
MR17, 21.
One of these social media platforms, Facebook,
views “its company mission to connect people in order
to create profit.” MR18. Facebook therefore measures
its profits in terms of “connections.” MR1. Facebook
generates its revenue from advertising to its users.
MR9, 20, 24-25. Its ability to profit depends on increasing its number of users and the number of their
connections to other users, thereby maximizing user

“MR” citations refer to the mandamus record before the
Texas Supreme Court.
1

6
engagement with Facebook’s products. MR18, 24-25.
The more Facebook knows about its users, the more
targeted advertising it can sell to advertisers and the
more revenue it can generate. MR19-20.
Facebook’s aim to “create profit” by connecting
people, collecting user data, and selling ads has no
discernable limit. Indeed, the users Facebook connects unquestionably include sex traffickers and their
victims. Facebook knows that human traffickers use
its products “to identify, cultivate, and then exploit
human trafficking victims.” MR21. Nonetheless, Facebook remains an active participant in facilitating
these connections. MR8-10, 20-21. Critically, Facebook’s own algorithms often connect traffickers to
their victims. MR8-10, 20-21. Facebook’s proprietary
algorithms generate recommendations for users to
connect with other users, groups, or other content,
and those algorithms may recommend connections between minors and adult predators. MR8-10, 20-21.
As the Texas Supreme Court recognized, Petitioner
has alleged that “Facebook ‘uses the detailed information it collects and buys on its users to direct users
to persons they likely want to meet,’ and, ‘[i]n doing
so, … facilitates human trafficking by identifying potential targets, like [Petitioner], and connecting traffickers with those individuals.” Pet.App.34a. Facebook knows that it is facilitating sex trafficking on its
platforms, but does so anyway in order to maximize
its profits. MR1, 3, 12, 18, 20-21.
Facebook has created “a breeding ground for sex
traffickers to stalk and entrap survivors,” providing
sex traffickers with unrestricted access to minor users. MR4, 6, 12, 17, 20-21, 34-35. The maintenance
of this breeding ground is profitable to Facebook, in-

7
creasing user engagement with its products and allowing Facebook to extract higher advertiser fees.
MR1, 24-25, 34-35. Facebook’s products are frequently the first point of contact between sex traffickers and their victims, and those products help traffickers “stalk, exploit, recruit, groom, and extort children
into the sex trade.” MR13, 17. For example, traffickers often “friend” their intended victim’s acquaintances, such as the victim’s classmates. MR17-18. Facebook cloaks these traffickers with credibility, informing the intended victims that the trafficker has
“shared” friends with the victim and encouraging the
victim to accept the connection. MR17-18. The traffickers then use the connections Facebook has helped
create to recruit and entrap their victims. MR17-18,
20-21, 27-29. While Facebook is well aware of the
prevalence of human trafficking on its platform, Facebook—motivated by profit—has failed to warn its vulnerable users about these known and foreseeable dangers or take action to protect them from connecting
with traffickers. MR19-25, 28-30, 32-36. Similarly,
although Facebook is aware of harmful human trafficking material on its platforms that violates its
terms of service, Facebook fails to remove that material. MR1, 3, 3-16, 21, 29-30, 34-35. Facebook refuses
to take action so that it can continue to financially
benefit from the presence of human traffickers and
trafficking materials on its platforms. MR1, 3, 13-16,
18, 24-25, 34-35.
B. Petitioner Was Sex Trafficked As A Minor Because Of Facebook’s Products
Petitioner was 15 years old when she was forced
into sex trafficking through Facebook. MR2, 27-30.
Her trafficker was an adult Facebook user who oper-

8
ated under a false name and friended her through Facebook. MR27-30. The trafficker’s account was littered with photos and other content that were clear
signs of human trafficking. MR29.
After Petitioner had an argument with her
mother, the trafficker told her she could make enough
money as a model to rent an apartment of her own and
convinced her to let him pick her up. MR28-29.
Within hours, Petitioner was raped, beaten, photographed, and forced into sex trafficking. MR29.
C. Proceedings Before The Trial Court
Petitioner brought suit against Facebook for violations of Texas’s anti-trafficking statute. Tex. Civ.
Prac. & Rem. Code Ann. § 98.002(a). She also raised
common law claims for negligence, negligent undertaking, gross negligence, and products liability arising out of Facebook’s role in Petitioner’s trafficking.
MR32-36.
Facebook moved to dismiss Petitioner’s claims under Texas Rule of Civil Procedure 91a on the basis
that they were barred by Section 230(c)(1) of the Communications Decency Act, which provides that “[n]o
provider or user of an interactive computer service
shall be treated as the publisher or speaker of any information provided by another information content
provider.” 47 U.S.C. § 230(c)(1); see MR177-94. The
trial court denied Facebook’s motion to dismiss.
Pet.App.50a-54a.
D. Proceedings Before The Court Of Appeals And Texas Supreme Court
Facebook filed a petition for a writ of mandamus
in the court of appeals challenging the denial of the

9
motion to dismiss.
Pet.App.44a-49a.

The court denied relief.

Facebook then sought relief from the Texas Supreme Court. See Pet.App.1a-43a. The court conditionally granted Facebook’s petition with respect to
Petitioner’s common law claims and directed the dismissal of those claims. Pet.App.24a-30a. The court
denied the petition with respect to Petitioner’s statutory sex trafficking claims. See Pet.App.30a-42a.
The court’s ruling turned on its interpretation of
Section 230’s meaning and scope. The court stated
that there were two possible readings of Section 230—
one conferring far-reaching immunity and one conferring more limited protection. Pet.App.15a-23a. The
court noted that the overwhelming weight of precedent had adopted “a capacious conception” of Section
230’s protections for internet companies. Pet.App.17a
(quoting Jane Doe No. 1 v. Backpage.com, LLC, 817
F.3d 12, 19 (1st Cir. 2016)). Under this view, “‘all
claims’ against internet companies ‘stemming from
their publication of information created by third parties’ effectively treat the defendants as publishers and
are barred.” Pet.App.17a (quoting Doe v. MySpace,
Inc., 528 F.3d 413, 418 (5th Cir. 2008)).
The court contrasted that view with the interpretation advanced by Justice Thomas of this Court. In
a recent statement respecting the denial of certiorari,
Justice Thomas explained that Section 230’s scope
was actually much narrower. Pet.App.17a-21a (citing
Malwarebytes, Inc. v. Enigma Software Grp. USA,
LLC, 141 S. Ct. 13 (2020) (statement of Thomas, J.,
respecting denial of certiorari)). He emphasized that
the plain text of Section 230 prohibits only the imposition of publisher liability and therefore should not

10
be construed to also protect defendants from liability
for the knowing distribution of illegal content. See
Pet.App.17a-21a.
The Texas Supreme Court acknowledged the textual interpretation offered by Justice Thomas, but ultimately declined to adopt it. The court explained that
it was reluctant to depart from the “prevailing judicial
understanding” that Section 230 confers far-reaching
immunity to internet companies. Pet.App.4a, 23a.
But the court emphasized that it expected this Court
to ultimately resolve the meaning of Section 230 and
the scope of the immunity it confers. Pet.App.20a
(“Which reading is superior, given the statutory context and the other canons of construction, is a question the U.S. Supreme Court may soon take up.”).
Applied to Facebook’s arguments, the court concluded that Petitioner’s common law claims were
barred under the prevailing reading of Section 230
conferring broad immunity. Pet.App.24a-30a. The
court concluded that those claims were subject to dismissal merely because they “arise[ ] from the company’s transmission of the harmful content.”
Pet.App.26a (emphasis added). In its analysis of Petitioner’s common law claims, the court focused
largely on allegations that Facebook had failed to
warn or protect her against the dangers of sex trafficking on Facebook’s products. Pet.App.24a-30a. But
the court did not meaningfully grapple with Petitioner’s allegations about Facebook’s other omissions,
or allegations about the design and operation of Facebook’s platforms that steer minors toward preying
adults. The court concluded that Facebook was
merely a passive participant, and that Petitioner’s
claims would indirectly fault Facebook for passively
transmitting
third-party
communications.

11
Pet.App.24a-27a, 34a-35a. In particular, the court
concluded that existing case law about Section 230’s
scope did not permit “[i]mposing a tort duty on a social
media platform to warn of or protect against malicious
third-party postings” because doing so “would in some
sense ‘treat’ the platform ‘as a publisher’ of the postings by assigning to the platform editorial or oversight
duties commonly associated with publishers.”
Pet.App.21a.
The court reached a different result with respect
to Petitioner’s claim under Texas’s anti-trafficking
statute. The court concluded that Petitioner alleged
that Facebook was a sufficiently active participant for
purposes of her statutory claim and thus it was not
barred by Section 230. See Pet.App.31a-36a. The
court stated that the statutory claim was “predicated
on allegations of Facebook’s affirmative acts encouraging trafficking on its platforms.” Pet.App.35a. Attempting to distinguish the statutory claim from the
common law claims, the court stated that Petitioner’s
claims for negligence and other common law violations were based on Facebook providing “neutral
tools” to carry out unlawful communications and passively acquiescing in the misconduct of its users.
Pet.App.34a-36a. Texas’s anti-trafficking statute, on
the other hand, required the defendant to “participate” in a venture that traffics another person, and
therefore required “more than mere passive acquiescence in trafficking conduct by others.”
See
Pet.App.31a-36a.
The court concluded that such allegations “do not
treat Facebook as a publisher who bears responsibility for the words or actions of third-party content providers. Instead, they treat Facebook like any other
party who bears responsibility for its own wrongful

12
acts.” Pet.App.35a-36a. The court emphasized that
“[n]othing in section 230’s operative text goes so far as
to ‘create a lawless no-man’s land on the Internet’ in
which online platforms like Facebook are free to actively encourage human trafficking.” Pet.App.36a
(quoting Fair Hous. Council of San Fernando Valley
v. Roommates.Com, LLC, 521 F.3d 1157, 1164 (9th
Cir. 2008)).
REASONS FOR GRANTING CERTIORARI
I.

This Court Should Grant Certiorari To Address The Proper Scope Of Section 230 Of
The Communications Decency Act.

The prevailing interpretation of Section 230 is
wrong, as jurists and other observers have increasingly recognized. The atextual view that Section 230
confers sweeping immunity from nearly all civil
claims against internet platforms and social media
companies flouts the statute’s plain language.
A. Courts Have Erroneously Interpreted
Section 230 To Provide Internet Platforms With Near-Categorical Immunity
From Suit.
1. Section 230 of the CDA was adopted as an
amendment to the Telecommunications Act of 1996.
Pub. L. 104-104, § 509, 110 Stat. 56, 137-39. The internet was mostly an afterthought in the Telecommunications Act. See Reno v. Am. Civil Liberties Union,
521 U.S. 844, 857-58 (1997). As this Court has explained, the Act’s “primary purpose was to reduce regulation and encourage ‘the rapid deployment of new
telecommunications technologies’” and to “promote
competition in the local telephone service market, the
multichannel video market, and the market for over-

13
the-air broadcasting.” Id. The “major components of
the statute have nothing to do with the Internet.” Id.
at 857-58.
The intent behind the CDA was specific and narrow—to prevent minors from accessing pornography
and other obscene materials on the internet. See 141
Cong. Rec H8469-72 (Aug. 4, 1995). Section 230
sought to achieve this goal by empowering parents to
determine the content of communications their children receive through interactive computer services.
See 47 U.S.C. § 230(b)(3)-(4).
Section 230 was proposed specifically to overrule
Stratton Oakmont, Inc. v. Prodigy Services Co., 1995
WL 323710 (N.Y. Sup. Ct. May 24, 1995). See 141
Cong. Rec. H8469-72. In Stratton Oakmont, Prodigy
held itself out as a family-oriented service provider
that exercised editorial control over the content on its
website by promulgating content guidelines and using
screening software. 1995 WL 323710, at *3-5. By exercising editorial control over some content, the court
concluded that Prodigy had become a “publisher” with
respect to all content on its website, rather than a
mere “distributor.” Id. Therefore, Prodigy was subject to defamation liability when it failed to remove
objectionable content on its website, even when it
merely distributed content without knowledge of its
defamatory nature. Id.; see Malwarebytes, 141 S. Ct.
at 14 (the Stratton Oakmont court “determined that
the company’s decision to exercise editorial control
over some content ‘render[ed] it a publisher’ even for
content it merely distributed”).
Congress concluded that Stratton Oakmont punished websites for attempting to exercise some control

14
over the content on their websites, effectively discouraging them from removing objectionable content to
protect children. See 141 Cong. Rec. H8470 (“We want
to encourage people like Prodigy … to do everything
possible for us … to help us control … what comes in
and what our children see.”). Congress responded
with Section 230 to protect interactive computer service providers from liability for restricting access to
objectionable material, thereby encouraging websites
to undertake such screening efforts. See 141 Cong.
Rec. H8471-72 (Section 230 “removes the liability of
providers such as Prodigy who currently make a good
faith effort to edit the smut from their systems ….”);
H.R. Rep. No. 104-458, at 194 (1996) (Section 230 protects “from civil liability … an interactive computer
service for actions to restrict or to enable restriction of
access to objectionable online material.”).
The text of Section 230(c)—notably titled “Protection for ‘Good Samaritan’ blocking and screening of offensive material”—contains two separate substantive
provisions. First, Section 230(c)(1) limits who may be
treated as a “publisher” of content:
No provider or user of an interactive computer
service shall be treated as the publisher or
speaker of any information provided by another information content provider.
47 U.S.C. § 230(c)(1). Section 230(c)(1) establishes
that “an Internet provider does not become the publisher of a piece of third-party content—and thus subjected to strict liability—simply by hosting or distributing that content.” Malwarebytes, 141 S. Ct. at 14.
Second, Section 230(c)(2)(A) provides an additional limitation on liability:

15
No provider or user of an interactive computer
service shall be held liable on account of any
action voluntarily taken in good faith to restrict access to or availability of material that
the provider or user considers to be obscene,
lewd, lascivious, filthy, excessively violent,
harassing, or otherwise objectionable,
whether or not such material is constitutionally protected.
47 U.S.C. § 230(c)(2)(A). This provision “provides an
additional degree of immunity when companies take
down or restrict access to objectionable content, so
long as the company acts in good faith.” Malwarebytes, 141 S. Ct. at 15.
In sum, Section 230 “suggests that if a company
unknowingly leaves up illegal third-party content, it
is protected from publisher liability by §230(c)(1); and
if it takes down certain third-party content in good
faith, it is protected by §230(c)(2)(A).” Id. As discussed below, however, this plain-text reading of the
statute “is a far cry from what has prevailed in court.”
Id.
2. The prevailing interpretation of Section 230
has strayed far from its origins and plain text. Courts
have read “extra immunity” into the provision,
“rel[ying] on policy and purpose arguments to grant
sweeping protection to Internet platforms.” Id. This
atextual interpretation of Section 230 began with the
Fourth Circuit’s decision in Zeran v. America Online,
Inc., 129 F.3d 327 (4th Cir. 1997). The Zeran court
declared that Section 230 created a “broad immunity,”
although the statue itself does not speak in terms of
“immunity.” Id. at 331. The court also held that the

16
statute served to protect websites from both distributor and publisher liability, despite the plain terms of
the statute addressing only publisher liability. Id. at
330-34. The court invoked the “policy” behind the
statute to expand its reach, reasoning that “to leave
distributor liability in effect would defeat the two primary purposes of the statute”—immunizing service
providers to avoid chilling effects on speech and encouraging self-regulation among computer service
providers. Id. at 331, 334.
Relying on Zeran, other courts subsequently
adopted its holding “as a categorical rule across all
contexts.” Malwarebytes, 141 S. Ct. at 15. Those decisions have granted internet platforms near-total immunity from suit in any case involving the publication
of third-party information. Courts have found a wide
variety of claims barred that “arise” in any way from
the publication of third-party content. See MySpace,
528 F.3d at 418 (Section 230 has been “construed …
broadly in all cases arising from the publication of
user-generated content ….”); Backpage.com, 817 F.3d
at 19 (“[C]ourts have invoked the prophylaxis of section 230(c)(1) in connection with a wide variety of
causes of action ….”). This “broad construction accorded to section 230 as a whole has resulted in a capacious conception of what it means to treat a website
operator as the publisher or speaker of information
provided by a third party.” Backpage.com, 817 F.3d
at 16-17, 19, 24 (claims related to websites’ active participation in human trafficking enterprise barred by
Section 230).
The ever-expanding reading of Section 230 has led
courts to grant immunity to defendants in startling
circumstances that bear little resemblance to those
that gave rise to Section 230. For example, in Herrick

17
v. Grindr, the plaintiff raised claims that the defendant’s dating application had been defectively designed. 765 F. App’x 586, 588-89 (2d Cir.), cert. denied, 140 S. Ct. 221 (2019). Because the application
lacked basic safety features, it allowed the plaintiff’s
ex-boyfriend to pose as the plaintiff and send other users of the application directly to the plaintiff’s exact
location using its geolocation feature. Id. at 588, 59091. As a result, hundreds of men showed up at the
plaintiff’s home and workplace demanding sex over
the course of multiple months. Id. Although the
plaintiff’s claims faulted the defendant for the defective design of its application—not for publishing
third-party communications—the court nonetheless
held that Section 230 barred those claims. Id. at 58891.
Additionally, in multiple cases, courts have immunized defendants from claims arising out of their
affirmative conduct in contributing to deadly terrorist
attacks. In Force v. Facebook, Inc., the plaintiffs alleged that Facebook’s algorithms that suggest friends
and content aided in terrorist attacks by connecting
users with terrorist groups and recommending content by terrorists. See 934 F.3d 53, 58-59 (2d Cir.
2019), cert. denied, 140 S. Ct. 2761 (2020). Specifically, plaintiffs—who were injured or killed in terrorist attacks—alleged that Facebook’s algorithms directed terrorist content “to the personalized newsfeeds of the individuals who harmed the plaintiffs,”
enabling a terrorist organization to “disseminate its
messages directly to its intended audiences” and
“carry out the essential communication components of
[its] terrorist attacks.” Id. at 59. A majority of the
Second Circuit panel, however, concluded that Face-

18
book’s affirmative use of algorithms to suggest terrorist content and connections was protected by Section
230. Id. at 65-71.
A divided panel of the Ninth Circuit reached the
same result in comparable circumstances in Gonzalez
v. Google LLC, 2 F.4th 871 (9th Cir. 2021). There, the
plaintiffs were family members of five persons who
were killed in terrorist acts orchestrated by ISIS. Id.
at 879-85. The plaintiffs’ claims were based in part on
allegations that Google used algorithms in connection
with its YouTube product to recommend ISIS videos
and connect users to ISIS-related YouTube accounts.
Id. at 881. Although the plaintiffs alleged that
YouTube’s algorithms had an active role in promoting
ISIS’s terrorist agenda and in assisting ISIS in recruiting new members, a majority of the Ninth Circuit
panel nonetheless held in relevant part that Section
230 barred those claims. See id. at 890-97. 2
In short, significant precedent interpreting Section 230 has immunized defendants from claims
based on their own misconduct in the design and operation of their products, going far beyond claims that
seek to hold the defendants liable as publishers or
speakers of third-party information.

The court held that Section 230 did not bar the plaintiffs’ claims premised on a separate theory that Google shared
advertising revenue with ISIS. Gonzalez, 2 F.4th at 897-99.
2

19
B. As Several Judges And Scholars Have
Recently Recognized, The Prevailing Interpretation Of Section 230 Is Not Supported By The Statute’s Plain Text.
Although an extraordinarily broad understanding
of Section 230 has prevailed in the lower courts, a
number of jurists and scholars have begun to question
that interpretation.
1. Justice Thomas recently highlighted the discrepancy between Section 230’s text and the current
state of the law applying the statute. In a statement
respecting the denial of certiorari, Justice Thomas
noted that “many courts have construed [Section 230]
broadly to confer sweeping immunity on some of the
largest companies in the world.” Malwarebytes, 141
S. Ct. at 13. Justice Thomas observed that those
courts have “emphasized nontextual arguments” concerning the “purpose and policy” of Section 230 in applying the provision, “leaving questionable precedent
in their wake.” Id. at 13-14. He encouraged the Court
to take up the interpretation of Section 230 in an appropriate case to “consider whether the text of this increasingly important statute aligns with the current
state of immunity enjoyed by Internet platforms.” Id.
Justice Thomas’s statement emphasized multiple
ways in which lower courts have strayed far from the
statutory language. First, Justice Thomas noted that
courts have “discarded the longstanding distinction
between ‘publisher’ liability and ‘distributor’ liability.” Id. at 15. “Although the text of §230(c)(1) grants
immunity only from ‘publisher’ or ‘speaker’ liability,
the first appellate court to consider the statute held
that it eliminates distributor liability too.” Id. (citing
Zeran, 129 F.3d at 331-34). Justice Thomas identified

20
several reasons to question this interpretation. He
noted that a different provision of the CDA, Section
502, makes distributors (as opposed to publishers) liable for knowingly displaying obscene material to
children. Id. He criticized courts that have held that
Congress “implicitly eliminated distributor liability”
in Section 230, given that “Congress explicitly imposed it” in Section 502. Id. He also observed that
Section 230 was enacted in the wake of Stratton Oakmont, which itself distinguished between the terms
“publisher” and “distributor.” Id. at 15-16. And he
further explained that “had Congress wanted to eliminate both publisher and distributor liability, it could
have simply created a categorical immunity in
§230(c)(1): No provider ‘shall be held liable’ for information provided by a third party. After all, it used
that exact categorical language in the very next subsection, which governs removal of content.” Id. at 16.
Second, Justice Thomas observed that “courts
have also departed from the most natural reading of
the text by giving Internet companies immunity for
their own content,” even though Section 230(c)(1) provides protection only with respect to content provided
by “another information content provider.” Id. (emphasis added). For example, courts have erroneously
held that Section 230(c)(1) protects a publisher’s decisions to alter content, including by editing content and
adding its own commentary. Id. (citations omitted).
Justice Thomas concluded that “[t]o say that editing a
statement and adding commentary in this context
does not ‘creat[e] or develo[p]’ the final product, even
in part, is dubious.” Id.
Third, Justice Thomas explained that courts have
erroneously interpreted Section 230 to shield companies for removing content other than for the specific

21
reasons permitted by Section 230. See 47 U.S.C.
§ 230(c)(2)(A) (permitting “good faith” removal of “obscene, lewd, lascivious, filthy, excessively violent, harassing, or otherwise objectionable” content). He explained that Section 230(c) is most naturally read to
protect companies when they (1) “unknowingly decline to exercise editorial functions” over third-party
content,” § 230(c)(1), or (2) “when they decide to exercise those editorial functions in good faith,”
§ 230(c)(2)(A). Malwarebytes, 141 S. Ct. at 17. But
because Section 230(c)(1) has been construed “to protect any decision to edit or remove content, courts
have curtailed the limits Congress placed on decisions
to remove content.” Id. (citation omitted). Courts
have left “no limits on an Internet company’s discretion to take down material.” Id.
Fourth, Justice Thomas observed that courts extended Section 230 to protect companies from an array of product defect claims. Id. He explained that
“[a] common thread through all these cases is that the
plaintiffs were not necessarily trying to hold the defendants liable ‘as the publisher or speaker’ of thirdparty content. §230(c)(1). Nor did their claims seek to
hold defendants liable for removing content in good
faith. §230(c)(2). Their claims rested instead on alleged product design flaws—that is, the defendant’s
own misconduct.” Id. at 18. Nonetheless, “courts, filtering their decisions through the policy argument
that ‘Section 230(c)(1) should be construed broadly,’
give defendants immunity.” Id. (citation omitted).
Justice Thomas correctly predicted that “[e]xtending §230 immunity beyond the natural reading of the
text can have serious consequences”—namely, giving
companies broad immunity from civil claims based on
various forms of egregious misconduct having nothing

22
to do with the concerns that led Congress to enact Section 230. Id.; see infra Section II.
2. Justice Thomas’s discussion of the flaws in the
lower courts’ interpretation of Section 230 is exactly
right—and he is not alone. His opinion reflects an
emerging view among judges on the lower federal
courts as well.
As noted above, a majority of the Second Circuit
panel in Force held that Facebook was immune from
claims that its friend and content suggestion algorithms aided terrorists by connecting users with terrorist groups and recommending terrorist content.
See supra at 17-18. However, a powerful dissent from
then Chief Judge Katzmann strongly disagreed with
the majority’s interpretation. Force, 934 F.3d at 7689 (Katzmann, C.J., concurring in part and dissenting
in part).
Chief Judge Katzmann explained that while Facebook’s algorithms ultimately show users content
written by other users, “it strains the English language to say that in targeting and recommending
these writings to users—and thereby forging connections, developing new social networks—Facebook is
acting as ‘the publisher of … information provided by
another information content provider.’” Id. at 76-77
(quoting 47 U.S.C. § 230(c)(1)). The dissent highlighted the absurdity of the majority’s conclusion: “we
today extend a provision that was designed to encourage computer service providers to shield minors from
obscene material so that it now immunizes those same
providers for allegedly connecting terrorists to one another.” Id. at 77. Chief Judge Katzmann concluded
that the plaintiffs’ claims “would hold Facebook liable
for its affirmative role in bringing terrorists together,”

23
far from any role as a “publisher.” Id.; see also id. at
82-83 (“Facebook uses the algorithms to create and
communicate its own message: that it thinks you, the
reader … will like this content,” and Facebook’s suggestions “contribute to the creation of real-world social networks,” conduct “far beyond the traditional editorial functions that the CDA immunizes.”).
A majority of the Ninth Circuit panel in Gonzalez
similarly held that Section 230 immunized Google
from claims arising out of its algorithms’ recommendation of terrorist content that assisted ISIS. See supra at 18. But the opinion drew both a concurrence
and a dissent echoing the observations made by Chief
Judge Katzmann in Force.
Judge Berzon concurred in the result, concluding
that binding Ninth Circuit precedent compelled the
outcome in the case. Gonzalez, 2 F.4th at 913 (Berzon,
J., concurring). She explained, however, that if not
bound by Ninth Circuit precedent, she “would hold
that the term ‘publisher’ under section 230 reaches
only traditional activities of publication and distribution—such as deciding whether to publish, withdraw,
or alter content—and does not include activities that
promote or recommend content or connect content users to each other.” Id. at 913. Judge Berzon explained
that “targeted recommendations and affirmative promotion of connections and interactions among otherwise independent users are well outside the scope of
traditional publication.” Id. at 914. She concluded
that “[n]othing in the history of section 230 supports
a reading of the statute so expansive as to reach these
website-generated messages and functions” regarding
what content users might like or who they might like
to interact with. Id. at 914-15.

24
Judge Gould separately dissented in part, concluding that existing Ninth Circuit precedent did not
control. Id. at 918-25 (Gould, J., concurring in part
and dissenting in part). He explained that “Section
230 was not intended to immunize, nor does its literal
language suggest that it immunizes, companies
providing interactive computer services from liability
for serious harms knowingly caused by their conduct.”
Id. at 920. Although he acknowledged that the use of
“neutral tools” may be immunized by Section 230, he
explained that “where the website (1) knowingly amplifies a message designed to recruit individuals for a
criminal purpose, and (2) the dissemination of that
message materially contributes to a centralized cause
giving rise to a probability of grave harm, then the
tools can no longer be considered ‘neutral.’” Id. at 923.
Judge Gould concluded that social media companies
who use content-generating algorithms to effectively
send messages to their users, such as delivering terrorist content to those users, should not be immunized
under Section 230. Id. at 925.
Both the Force and Gonzalez cases have obvious
and strong parallels to the circumstances present in
this case—where Facebook’s algorithms and features
connected sex traffickers to their minor victims. See
MR8-10, 20-21.
3. Much like the jurists in those cases, legal scholars have likewise recognized that the prevailing interpretation of Section 230 is irreconcilable with the statute’s plain words. As written, Section 230(c)(1) protects an interactive computer service “from claims
that it acted as a publisher or speaker of content created by a third party. That is to say, essential to the
analysis of a claim against a service is whether the
claim treats the provider as a publisher or speaker of

25
another’s words.” Leary, supra, at 563. Rather than
enforce this “limited protection,” however, the jurisprudence in this area has come unmoored from the
statutory text, creating “de facto absolute immunity”
from civil suit for defendants engaging in sex trafficking. See id. at 554-58, 563-65, 573-603.
This “broad construction of the CDA’s immunity
provision adopted by the courts has produced an immunity from liability that is far more sweeping than
anything the law’s words, context, and history support.” Danielle Keats Citron & Benjamin Wittes, The
Internet Will Not Break: Denying Bad Samaritans
§ 230 Immunity, 86 Fordham L. Rev. 401, 408 (2017).
While Section 230 was intended to encourage internet
platforms to remove obscene content online, the effect
of the sweeping interpretation of Section 230 has been
quite the opposite: “[b]lanket immunity gives platforms a license to solicit illegal activity, including sex
trafficking, child sexual exploitation, and nonconsensual pornography. Site operators … have no incentive
to respond to clear instances of criminality or tortious
behavior.” Id. at 414. The “overbroad interpretation”
of Section 230 “has left victims of online abuse with no
leverage against site operators whose business models facilitate abuse.” Id. at 404. But this problem can
be resolved: “the solution would be for courts to interpret § 230 in a manner more consistent with its text,
context, and history.” Id. at 415.

26
C. The Texas Supreme Court Erred By Deferring To Misguided Jurisprudence Interpreting Section 230 To Create Broad
Immunity, Rather Than Construing The
Statute As It Is Written.
1. Most courts have erroneously jettisoned any
analysis of whether a given claim actually “treat[s]”
the defendant as the “publisher or speaker” of thirdparty information, as the statutory text provides. 47
U.S.C. § 230(c)(1). Instead, courts have granted defendants blanket “immunity” so long as the defendant
is in any way involved in the publication of third-party
content. As the Texas Supreme Court observed, “most
federal cases interpreting Section 230 hold that it confers ‘immunity from suit rather than a mere defense
to liability.’” Pet.App.11a (quoting Nemet Chevrolet,
Ltd. v. Consumeraffairs.com, Inc., 591 F.3d 250, 254
(4th Cir. 2009)). And the prevailing view among lower
courts “is that all claims against internet companies
‘stemming from their publication of information created by third parties’ effectively treat the defendants
as publishers and are barred.” Pet.App.17a (quoting
MySpace, 528 F.3d at 418)).
Yet the text of Section 230 nowhere states that defendants are “immune” from all claims that “stem”
from the publication of third-party information. That
language comes purely from policy-laden, atextual interpretations of Section 230 that have expanded the
statute well beyond its plain text. The actual text of
Section 230(c)(1) indicates that the provision, at most,
preempts certain claims that require the defendants
to be “treated as” a publisher or speaker of third-party
information.

27
In essence, courts have granted defendants immunity from suit in any case that in any way “arises
from” the publication of information, regardless of
whether the plaintiff’s claims actually fault the defendant for its role as a publisher of that information.
Facebook advocated for that view in the Texas Supreme Court. And the Texas Supreme Court agreed.
The court dismissed Petitioner’s common law claims
on the basis that they “derive[ ] from” or “arise[ ] from
the company’s transmission of the harmful content.”
Pet.App.24a, 26a.
The view that Section 230 “immunizes” a defendant from suit is atextual. The Seventh Circuit rightfully observed that “[s]ubsection (c)(1) does not mention ‘immunity’ or any synonym.” Chi. Lawyers’
Comm. for Civil Rights Under Law, Inc. v. Craigslist,
Inc., 519 F.3d 666, 669 (7th Cir. 2008). Therefore,
“subsection (c)(1) does not create an ‘immunity’ of any
kind. It limits who may be called the publisher of information that appears online.” City of Chicago v.
StubHub!, Inc., 624 F.3d 363, 366 (7th Cir. 2010) (citations omitted).
Similarly, the notion that Section 230 provides
protection in any case that “stems,” “derives,” or
“arises” from third-party content is unsupported by
the statutory language. The Ninth Circuit noted that
“[l]ooking at the text, it appears clear that neither this
subsection nor any other declares a general immunity
from liability deriving from third-party content.”
Barnes v. Yahoo!, Inc., 570 F.3d 1096, 1100 (9th Cir.
2009) (emphasis added); see also HomeAway.com, Inc.
v. City of Santa Monica, 918 F.3d 676, 682 (9th Cir.
2019) (Ninth Circuit has “rejected use of a ‘but-for’
test that would provide immunity under the CDA
solely because a cause of action would not otherwise

28
have accrued but for the third-party content” (citing
Doe v. Internet Brands, Inc., 824 F.3d 846, 853 (9th
Cir. 2016))).
There is no question that Facebook does publish
third-party content generally and did publish thirdparty content in this case. But that is not the end of
the analysis. See Force, 934 F.3d at 83 (“The fact that
Facebook also publishes third-party content should
not cause us to conflate its two separate roles with respect to users and their information.”). Here, Petitioner’s allegations rest not on Facebook’s role as a
“publisher,” but on Facebook’s use of algorithms and
recommendations that connect traffickers to their victims and its sustained failure to act in response to a
known sex trafficking problem on its platforms. See
infra at 30-32. Petitioner seeks to hold Facebook liable for its conscious decisions to profit by creating connections between traffickers and their victims and refusing to take any action to prevent its platform from
serving as a breeding ground for trafficking. MR1, 3,
18, 24-25, 32-36. Simply put, Petitioner’s claims do
not “fault the defendant’s activity as the publisher of
specific third-party content.” Force, 934 F.3d at 82.
Therefore, they are not barred by the plain text of Section 230. Whether those claims in some way “derive”
or “arise” from third-party content is irrelevant.
2. Granting sweeping immunity to any publisher
also renders Section 230(c)(2)’s narrower limitation on
liability meaningless. The Texas Supreme Court
joined other courts in adopting an interpretation of
Section 230(c)(1) that does not even attempt to preserve the specific limitations in Section 230(c)(2).
Section 230(c)(2) provides that an interactive computer service will not be held liable “on account of any

29
action voluntarily taken in good faith to restrict access
to or availability of material that the provider or user
considers to be obscene, lewd, lascivious, filthy, excessively violent, harassing, or otherwise objectionable,
whether or not such material is constitutionally protected.” 47 U.S.C. § 230(c)(2).
The sweeping interpretation of Section 230(c)(1)
advanced by the Texas Supreme Court effectively
reads Section 230(c)(2) out of the statute. If Section
230(c)(1) immunizes an interactive computer service
from liability anytime third-party content is involved
or anytime the claim “stems,” “derives,” or “arises”
from third-party content, then an interactive computer service is inevitably immune from any action
taken with respect to third-party content. There
would be no need to ever determine whether, under
Section 230(c)(2), the interactive computer service
had a “good faith” basis for taking down the thirdparty content or whether that content was “obscene”
or “lewd” or “otherwise objectionable.”
As Justice Thomas observed, “decisions that
broadly interpret §230(c)(1) to protect traditional publisher functions also eviscerated the narrower liability
shield” in Section 230(c)(2). Malwarebytes, 141 S. Ct.
at 16. Because many courts have wrongly construed
Section 230(c)(1) “to protect any decision to edit or remove content, courts have curtailed the limits Congress placed on decisions to remove content.” Id. at
17 (citation omitted). The broad interpretation of Section 230(c)(1) has therefore left “no limits on an Internet company’s discretion to take down material.” Id.
(Section 230(c)(1) has been held to protect the defendant from all liability in removing content, even when
defendant did so on the basis of racial animus). It is
axiomatic that a statutory provision should not be

30
read so broadly as to swallow and render meaningless
another provision of the same statute. Yet the sweeping interpretation of Section 230(c)(1) that has prevailed in many courts, to whom the Texas Supreme
Court deferred, has produced exactly that result with
respect to Section 230(c)(2).
3. Properly construed, Section 230 does not immunize internet platforms from suit where, as here,
claims arise from the platform’s own participation in
illegal or wrongful conduct. Courts have immunized
defendants from liability for claims that involve their
“own misconduct” and have nothing to do with acting
as a mere passive “publisher.” See Id. at 18. This
problem is particularly pronounced in cases, like this
one, where the defendants are faulted for affirmatively employing algorithms that cause harm to the
plaintiff. These types of claims do not fault the defendants for passively “publishing” third-party material. Instead, they fault the defendants for conduct
that in no way resembles traditional “publisher” functions.
Where a defendant deploys its own algorithms to
promote connections that cause injury, that misconduct should not be protected by Section 230(c)(1). Petitioner’s claims here seek to “hold Facebook liable for
its affirmative role” in connecting sex traffickers with
victims. Force, 934 F.3d at 77 (emphasis added). In
suggesting such connections, Facebook communicated
numerous messages to the victims—(1) that the traffickers were people that the victims would like to
know and should know, and (2) that the traffickers
were safe because they were part of the victims’ circle
through “shared” friends. These messages put Petitioner in more danger, amplifying the threat that traffickers pose to underage children on social media who

31
are especially susceptible to pressure and influence.
See Gonzalez, 2 F.4th at 924 (Gould, J., concurring in
part and dissenting in part) (Section 230 should not
bar actions based on the defendant’s use of algorithms
to send messages that contribute to and amplify illegal conduct).
In these circumstances, Facebook is not acting
merely as a passive conduit for third-party communications. Rather, it is communicating “its own message”: that the reader will like the content it is recommending. Force, 934 F.3d. at 82; Gonzalez, 2 F.4th at
914-15 (Berzon, J., concurring) (“[A] plaintiff asserting a claim based on the way that website algorithms
recommend content or connections to users is not
seeking to treat the interactive computer service as a
‘publisher’ within any usual meaning of that term. Instead, the website is engaging in its own communications with users, composing and sending messages to
users concerning what they might like to view or who
they might like to interact with.”); id. at 924 (Gould,
J., concurring in part and dissenting in part) (algorithm conveyed message that “YouTube users may be
interested in contributing to ISIS in a more tangible
way”); see also id. at 921 (complaint was based on
Google “repeatedly putting [terrorist content] in the
eyes and ears of persons who were susceptible to acting upon it”).
The recommendations and messages sent by Facebook’s algorithms ultimately “contribute to the creation of real-world social networks”—in this case, networks between traffickers and their victims. Force,
934 F.3d at 82. Facebook knowingly created these
new social networks between traffickers and their victims to maximize its profits, increasing engagement
between its users and its advertising revenue. MR1,

32
3, 8-10, 18, 20-21, 24-25, 34-35. This affirmative conduct is far afield from any sort of traditional “publisher” function and is not protected by Section 230.
See Gonzalez, 2 F.4th at 914 (Berzon, J., concurring)
(“[T]argeted recommendations and affirmative promotion of connections and interactions among otherwise independent users are well outside the scope of
traditional publication.”).
4. Likewise, Petitioner’s common law failure to
warn theory should have survived dismissal under a
proper Section 230 analysis. A claim that Facebook
failed to warn its users about a known and well-documented problem of sex trafficking on its platform in
order to maximize its profits does not fault Facebook
for acting as a publisher generally or for publishing a
particular third-party’s communications. See MR1, 35, 19-26, 32-36 (Facebook knew about and acknowledged the problem of human trafficking on its platform, but failed to take appropriate action in response
because doing so would decrease its profits). Facebook could have provided appropriate warnings,
thereby satisfying its duty to warn, without in any
way modifying or reviewing posted content. Imposing
a duty to warn users about the known danger of sex
trafficking on its platforms is not a duty to monitor or
edit any of the content that its users post. See, e.g.,
HomeAway.com, 918 F.3d at 682 (determining
whether Section 230 applies entails looking at what
“the duty would necessarily require” and it is not
enough that “a legal duty might lead a company to respond with monitoring or other publication activities”
(emphasis added)). Therefore, Petitioner’s failure to
warn theory would not have required Facebook to be
treated as a “publisher” of third-party content, and it
was not barred by Section 230.

33
*

*

*

The view that Section 230 confers broad immunity, divorced from its actual text, must be corrected.
This interpretation immunizes defendants from complaints about their own misconduct that have nothing
to do with the defendant’s status as a “publisher” of
third-party information. This Court should grant review to enforce the plain text of Section 230 and confirm that internet companies are not privileged to
profit from causing affirmative harm to their customers while enjoying near-total immunity from civil liability.
II. The Proper Interpretation Of Section 230
Presents A Critical Question of Federal Law
Whose Importance Has Increased Exponentially In The Decades Since Its Enactment.
Section 230’s scope is an increasingly litigated legal issue that has now been addressed by many
courts—including every U.S. court of appeals—since
its enactment in 1996. While the prevailing interpretation of Section 230 is broad, a “growing chorus of
voices” is now “calling for a more limited reading of
the scope of section 230 immunity.” Gonzalez, 2 F.4th
at 913 (Berzon, J., concurring). More judges and
scholars are calling on courts to reject atextual readings of Section 230 and to return to its plain terms.
Moreover, some of the assumptions driving early policy-based judicial interpretations of Section 230—
when “the Internet” involved little more than online
bulletin boards—have long since become outdated as
technology has changed drastically in the past-twenty
five years. See Leary, supra, at 558 (“The Internet of
1996 is unrecognizable today.”). The proper interpre-

34
tation of Section 230 has recently divided jurists, particularly with respect to how Section 230 applies to
internet companies’ use of algorithms to push specific
messages to their users. See supra at 17-18, 22-24.
The resolution of this critical and recurring issue warrants this Court’s review.
Proper interpretation of Section 230 is particularly important because, under the current state of
the law, most claims alleging serious wrongdoing by
internet platforms are dismissed at the outset before
plaintiffs have an opportunity to develop any evidence
to reveal the true nature and extent of the companies’
misconduct. Yet courts “do the legal system a disservice by dismissing a case before considering the evidence that can arise in a properly monitored discovery
period.” Gonzalez, 2 F.4th at 918 (Gould, J., concurring in part and dissenting in part).
This problem came into focus during the Senate
investigation into Backpage.com—an internet platform that was routinely used for sex trafficking before
it was seized and shut down by the Department of
Justice. As one senator explained, the application of
Section 230 prevented both government officials and
civil plaintiffs from obtaining any documents to show
what Backpage was actually doing: “All of the attorneys general around the country and various law enforcement agencies and individuals who were trying
to sue [B]ackpage were met every time with a 230 defense. They were not even able to penetrate to get the
documents from [B]ackpage in order to learn about
what [B]ackpage was really up to.” 164 Cong. Rec.
S1830 (Mar. 20, 2018).
It is one thing to say that Section 230 provides internet companies with a defense from liability in some

35
circumstances; it is quite another to say that Section
230 provides internet companies with near complete
immunity from the litigation process and hides their
activities behind an impenetrable shroud of secrecy.
As Justice Thomas observed, “[p]aring back the
sweeping immunity courts have read into §230 would
not necessarily render defendants liable for online
misconduct. It simply would give plaintiffs a chance
to raise their claims in the first place.” Malwarebytes,
141 S. Ct. at 18.
The atextual interpretation of Section 230 that
has taken hold has effectively allowed internet companies to exist outside the law and to knowingly profit
from illegal activities on their platforms. These companies have been immunized from—and excused from
even having the burden to respond to—well-documented allegations that they have assisted terrorist
groups, knowingly hosted illegal child pornography,
engaged in race discrimination, and intentionally
structured their website to facilitate human trafficking. See Malwarebytes, 141 S. Ct. at 17-18; see also
Citron & Wittes, supra, at 408, 413-14 (“Platforms
have been protected from liability even though they
republished content knowing it might violate the law,
encouraged users to post illegal content, changed
their design and policies for the purpose of enabling
illegal activity, or sold dangerous products.”). It
should go without saying that, in enacting a law to
protect children from online pornography, Congress
never intended to sanction such horrific and illegal
misconduct.
In light of the significant role that internet companies play in the modern economy (especially as compared to the role they played in 1996), the question of
whether these entities are immune from most forms

36
of civil liability is of critical importance. As Justice
Thomas emphasized, Section 230 has been used to
“confer sweeping immunity on some of the largest
companies in the world.” Malwarebytes, 141 S. Ct. at
13. The operation of these companies affects the lives
of millions of people every day, yet there is currently
little if any legal recourse when the companies cause
them injury. The correct interpretation of Section 230
is an important issue that this Court should address
and resolve. See id. at 13-14, 18.
CONCLUSION
For the reasons set forth above, this Court should
grant the petition for writ of certiorari.
Respectfully submitted,
ANNIE MCADAMS
ANNIE MCADAMS PC
1150 Bissonnet Street
Houston, TX 77005

WARREN W. HARRIS
Counsel of Record
WALTER A. SIMONS
BRACEWELL LLP
711 Louisiana St., Suite 2300
Houston, TX 77002
(713) 221-1490
warren.harris@bracewell.com

DAVID E. HARRIS
JEFFREY H. RICHTER
SICO HOELSCHER
HARRIS LLP
802 N. Carancahua
JEFFREY M. HARRIS
Suite 900
TAYLOR A.R. MEEHAN*
Corpus Christi, TX 78401 CONSOVOY MCCARTHY
1600 Wilson Blvd., Suite 700
Arlington, VA 22209
*Licensed in Illinois & D.C.;
Virginia bar application pending.

Counsel for Petitioner
September 23, 2021

APPENDIX

37
APPENDIX TABLE OF CONTENTS
PAGE
In re Facebook, Inc., 625 S.W.3d 80 (Tex. 2021) ......1a
In re Facebook, Inc., 607 S.W.3d 839 (Tex. App.—
Houston [14th Dist.] 2020) .............................44a
Jane Doe v. Facebook, Inc., et al., No. 2018-69816
(334th Dist. Ct., Harris Cty., Tex.,
May 23, 2019) ..................................................50a
47 U.S.C. § 230 ........................................................55a

1a
APPENDIX A
IN THE SUPREME COURT OF TEXAS
__________
No. 20-0434
___________
IN RE FACEBOOK, INC. AND FACEBOOK, INC. D/B/A
INSTAGRAM, RELATORS
_________________________________________________
ON PETITION FOR WRIT OF MANDAMUS
_________________________________________________
Argued February 24, 2021
JUSTICE BLACKLOCK delivered the opinion of the
Court.
JUSTICE BUSBY AND JUSTICE HUDDLE did not participate in the decision.
Facebook seeks writs of mandamus directing the
dismissal of three lawsuits pending against it in district court. The plaintiffs in all three cases allege they
were victims of sex trafficking who became entangled
with their abusers through Facebook. They assert
claims for negligence, negligent undertaking, gross
negligence, and products liability based on Facebook’s
alleged failure to warn of, or take adequate measures
to prevent, sex trafficking on its internet platforms.
They also assert claims under a Texas statute creating a civil cause of action against those who intentionally or knowingly benefit from participation in a sex-

2a
trafficking venture. See TEX. CIV. PRAC. & REM. CODE
§ 98.002.
In all three lawsuits, Facebook moved to dismiss
all claims against it as barred by section 230 of the
federal “Communications Decency Act” (“CDA”),
which provides that “[n]o cause of action may be
brought and no liability may be imposed under any
State or local law that is inconsistent with this section.” 47 U.S.C. § 230(e)(3). Facebook contends that
all the plaintiffs’ claims are “inconsistent with” section 230(c)(1), which says that “[n]o provider or user
of an interactive computer service shall be treated as
the publisher or speaker of any information provided
by another information content provider.”
For the reasons explained below, we deny mandamus relief in part and grant it in part. The plaintiffs’
statutory human-trafficking claims may proceed, but
their common-law claims for negligence, gross negligence, negligent undertaking, and products liability
must be dismissed.
We do not understand section 230 to “create a lawless no-man’s-land on the Internet” in which states
are powerless to impose liability on websites that
knowingly or intentionally participate in the evil of
online human trafficking. Fair Hous. Council v.
Roommates.Com, LLC, 521 F.3d 1157, 1164 (9th Cir.
2008) (en banc). Holding internet platforms accountable for the words or actions of their users is one thing,
and the federal precedent uniformly dictates that section 230 does not allow it. Holding internet platforms
accountable for their own misdeeds is quite another

3a
thing. This is particularly the case for human trafficking. Congress recently amended section 230 to indicate that civil liability may be imposed on websites
that violate state and federal human-trafficking laws.
See Allow States and Victims to Fight Online Sex
Trafficking Act (“FOSTA”), Pub. L. No. 115-164, 132
Stat. 1253 (2018). Section 230, as amended, does not
withdraw from the states the authority to protect
their citizens from internet companies whose own actions—as opposed to those of their users—amount to
knowing or intentional participation in human trafficking.
Whether the plaintiffs can prove such a claim
against Facebook is not at issue in this mandamus
proceeding. At this early stage of these cases, we take
the plaintiffs’ allegations as true and construe them
liberally against dismissal. We hold only that the statutory claim for knowingly or intentionally benefiting
from participation in a human-trafficking venture is
not barred by section 230 and may proceed to further
litigation.
As for the plaintiffs’ other claims, section 230 is no
model of clarity, and there is ample room for disagreement about its scope. See generally Malwarebytes, Inc.
v. Enigma Software Grp. USA, LLC, 141 S. Ct. 13
(2020) (statement of Thomas, J., respecting denial of
certiorari). Despite the statutory text’s indeterminacy, the uniform view of federal courts interpreting
this federal statute requires dismissal of claims alleging that interactive websites like Facebook should do
more to protect their users from the malicious or objectionable activity of other users. The plaintiffs’
claims for negligence, negligent undertaking, gross

4a
negligence, and products liability all fit this mold. The
United States Supreme Court—or better yet, Congress—may soon resolve the burgeoning debate about
whether the federal courts have thus far correctly interpreted section 230 to bar such claims. Nevertheless, the prevailing judicial interpretation of section
230 has become deeply imbedded in the expectations
of those who operate and use interactive internet services like Facebook. We are not interpreting section
230 on a clean slate, and we will not put the Texas
court system at odds with the overwhelming federal
precedent supporting dismissal of the plaintiffs’ common-law claims.
Facebook’s petition for mandamus relief is denied
in part and conditionally granted in part. The humantrafficking claims under section 98.002 of the Civil
Practice and Remedies Code may proceed in accordance with this opinion, but the common-law claims
must be dismissed.
I. Background
This proceeding involves three separate lawsuits
against Facebook based on similar allegations, which
must be “taken as true” for purposes of deciding Facebook’s motions to dismiss. TEX. R. CIV. P. 91a. The
facts alleged in each plaintiff’s live petition are summarized below.
Cause No. 2018-69816 (334th Dist. Ct.). Plaintiff was fifteen years old in 2012 when she was
“friended” by another Facebook user with whom she
shared several mutual friends. The user’s profile featured photographs of “scantily-clad young women in
sexual positions” with money stuffed in their mouths,

5a
as well as “other deeply troubling content.” The user,
who was “well over” the age of eighteen, contacted
Plaintiff using Facebook’s messaging system, which
the two began using to communicate regularly. He
told Plaintiff she was “pretty enough to be a model”
and promised to help her pursue a modeling career.
After Plaintiff confided in him about an argument
with her mother, he again offered her a modeling job
and proposed they meet in person. Shortly after meeting him, Plaintiff was photographed and her pictures
posted to the website Backpage (which has since been
shut down due to its role in human trafficking), advertising her for prostitution. As a result, Plaintiff
was “raped, beaten, and forced into further sex trafficking.”
Cause No. 2018-82214 (334th Dist. Ct.). Plaintiff was fourteen years old in 2017 and was a user of
both Facebook and Instagram, which Facebook owns.
She was contacted via Instagram by a male user who
was “well over” eighteen years of age. Using “false
promises of love and a better future,” he lured Plaintiff “into a life of trafficking through traffickers who
had access to her and sold her through social media.”
Her traffickers used Instagram to advertise Plaintiff
as a prostitute and to arrange “‘dates’ (that is, the
rape of [Plaintiff] in exchange for money).” As a result,
Plaintiff was raped numerous times. Following Plaintiff’s rescue from the trafficking scheme, traffickers
continued to use her profile to attempt to entrap other
minors in the same manner. Plaintiff’s mother reported these activities to Facebook, which never responded.

6a
Cause No. 2019-16262 (151st Dist. Ct.). Plaintiff was fourteen years old in 2016 and used an Instagram account, on which she identified herself as fourteen years old. She was not required to verify her age
or to link her account to that of a parent or guardian.
Another Instagram user, a man of about thirty with
whom Plaintiff was not acquainted, “friended” her on
Instagram. Between 2016 and 2018, the man and
Plaintiff regularly exchanged messages. The correspondence was part of his alleged efforts to “groom”
Plaintiff to ensnare her in a sex-trafficking operation.
In March 2018, he convinced Plaintiff to sneak away
from her home and meet him. Upon meeting her, he
took her to a motel, photographed her, and posted the
pictures to Backpage. Plaintiff was then raped repeatedly by men who responded to her traffickers’ posting
on the site.
Litigation Against Facebook. The plaintiffs in
all three lawsuits (“Plaintiffs”) brought essentially
identical claims against Facebook. First, Plaintiffs allege Facebook owed them a duty to exercise reasonable care to protect them from the “dangers of grooming
and recruitment on [its platforms] by sex traffickers.”
Plaintiffs argue that Facebook breached this duty by,
among other omissions, its “[f]ailure[s] to warn” of
those risks, “implement awareness campaigns” about
“sex traffickers using its website,” “verify the identity
and/or age of users,” “implement any safeguards to
prevent adults from contacting minors,” “report suspicious messages between a minor and an adult user,”
“require accounts for minors to be linked to those of
adults,” or “deprive known criminals from having accounts.” “Facebook’s duty could have been satisfied,”
Plaintiffs contend, “through warnings posted on users’

7a
feeds, e-mails to accounts run by users under the age
of 18, and/or through informing authorities of what it
knew about red-flag activities and messages between
users.” Plaintiffs also brought gross-negligence and
negligent-undertaking claims based largely on the
same allegations. Finally, Plaintiffs brought productsliability claims under the theory that “[a]s a manufacturer, Facebook is responsible for the defective and
unreasonabl[e] characteristics in its ... product[s].”
Plaintiffs contend that these products, specifically Facebook and Instagram, were “marketed to children
under the age of 18, without providing adequate
warnings and/or instructions regarding the dangers of
‘grooming’ and human trafficking on [either platform]. These dangerous warning and marketing defects were both the direct and producing cause of
[Plaintiffs’] trafficking.”1
In addition to the foregoing common-law claims,
Plaintiffs also sued under a Texas statute that creates
a civil cause of action against anyone “who intentionally or knowingly benefits from participating in a ven-

______________________
1

In Cause No. 2019-16262, the district court granted Facebook’s motion to dismiss the products-liability claim on the
ground that Facebook is not a “product” (an issue not raised
here). In the other two suits, Facebook’s briefing in support of its
motions to dismiss argued for dismissal of the products-liability
claims on section 230 grounds. We agree with Facebook that
Plaintiffs’ products-liability claims in Cause Nos. 2018-82214
and 2018-69816 are properly before this Court.

8a
ture that traffics another person.” TEX. CIV. PRAC. &
REM. CODE § 98.002(a). Plaintiffs claim “Facebook
breached this duty by knowingly facilitating ... sex
trafficking.” Facebook allegedly did so by “creating a
breeding ground for sex traffickers to stalk and entrap
survivors,” “[r]aising advertising fees by extending its
‘user base’ to include sex traffickers,” “[i]ncreasing
profits by not using advertising space for public service announcements regarding the dangers of ... sex
traffickers,” and “[i]ncreasing profit margins due to
lower operation cost by not implementing safeguards
requiring verification of [users’] identit[ies].”
In all three lawsuits, Facebook moved under Rule
91a to dismiss all claims as barred by section 230. The
motions were denied in relevant part by the district
courts. Facebook sought mandamus relief in the court
of appeals. A divided panel denied relief without substantive explanation. 607 S.W.3d 839 (Tex. App.—
Houston [14th Dist.] 2020). One justice would have
granted relief based on section 230. Id. at 839–40
(Christopher, J., dissenting). Facebook petitioned this
Court for writs of mandamus.2
______________________
On January 14, 2021, this Court was informed that the
district judge who denied Facebook’s Rule-91a motions in Cause
Nos. 2018-69816 and 2018-82214 no longer holds office. Since
this “case is an original proceeding under Rule 52,” we “must
abate the proceeding to allow the successor [judge] to reconsider
the original [judge’s] decision.” TEX. R. APP. P. 7.2(b). Accordingly, on January 22nd, we abated this mandamus proceeding in
part “until further order of th[is] Court,” instructing the parties
to report back within 60 days. The partial abatement did not affect Cause No. 2019-16262, and oral argument proceeded as
scheduled on February 24th. On March 23rd, the parties submitted a status report explaining that the plaintiffs in both affected
cases filed motions on February 11th “asking [the successor
2

9a
II. Analysis
A. Standard of Review
“Mandamus relief is appropriate” to correct “a
clear abuse of discretion” for which a relator “has no
adequate remedy by appeal.” In re Geomet Recycling
LLC, 578 S.W.3d 82, 91 (Tex. 2019). In this proceeding, the principal point of contention is whether the
district courts abused their discretion by denying Facebook’s motions to dismiss based on section 230. The
______________________

judge] to adopt [her predecessor’s] order[s],” and that “Facebook
filed ... responses in opposition” on March 8th. As far as this
Court is aware, both motions remain pending.
Although the judge now presiding over Cause Nos. 201869816 and 2018-82214 has not made a ruling of which we are
aware, Rule 7.2(b) does not require indefinite abatement. It requires only that we “abate the proceeding to allow [the new
judge] to reconsider the original [judge’s] decision.” That requirement has been met here. Over four months have passed since the
plaintiffs asked the new judge to adopt the original judge’s decision, and over three months have passed since Facebook responded. The intervening time has been sufficient to “allow the
successor to reconsider the original [judge]’s decision.” “[M]andamus is a discretionary writ,” the availability of which depends in
part on our equitable judgment as to whether mandamus relief
is an “efficient manner of resolving the dispute.” In re Blevins,
480 S.W.3d 542, 544 (Tex. 2013). Our decision today resolves Facebook’s mandamus petition with respect to Cause No. 201916262, and under these circumstances Rule 7.2(b) does not require us to refrain from doing the same in the heretofore abated
portions of this proceeding. This Court’s January 22nd abatement order regarding Cause Nos. 2018-69816 and 2018-82214 is
lifted, and Facebook’s entire mandamus petition regarding all
three trial-court cases is disposed of as described in this opinion.

10a
answer depends on the meaning of section 230, a federal statute immunizing “interactive computer service[s]” from certain liability stemming from content
created “by [ ]other information content provider[s].”
47 U.S.C. § 230(c), (e)(3).3 We review de novo the trial
courts’ legal conclusions, including their interpretations of federal statutes, since an error of law or an
erroneous application of law to facts is always an
abuse of discretion. In re Geomet, 578 S.W.3d at 91–
92.
Although mandamus relief is often unavailable to
correct the erroneous denial of a motion to dismiss, it
may nevertheless be warranted if a litigant would suffer “impairment or loss” of “important substantive ...
rights” while awaiting the error’s correction on appeal. In re Prudential Ins. Co. of Am., 148 S.W.3d 124,
136 (Tex. 2004). Among the rights that can only be
vindicated by dismissal are those conferred by “federal statutes [that] provid[e] covered defendants with
immunity from suit.” In re Academy, Ltd., ___ S.W.3d
___, ___ (Tex. 2021). As we held today in Academy,
for example, the federal “Protection of Lawful Commerce in Arms Act” (“PLCAA”) created such an entitlement to dismissal because the Act provided that
certain actions “may not be brought” against covered
______________________
3

The parties agree that Facebook is an “interactive computer service.” The CDA defines “information content provider”
as anyone “responsible, in whole or in part, for the creation or
development of information provided through” an “interactive
computer service.” § 230(f)(3). No party disputes that the messages sent to Plaintiffs through Facebook or Instagram by sex
traffickers qualify as “information provided by another information content provider.”

11a
defendants. Id. at ___. In that case, mandamus relief
was warranted to correct erroneous denial of a motion
to dismiss based on the PLCAA because requiring a
defendant to “proceed[ ] to trial” and await the error’s
correction on appeal “‘would defeat the substantive
right’ granted by the [statute]” to be free from burdensome litigation. Id. at ___, (quoting In re McAllen Med.
Ctr., Inc., 275 S.W.3d 458, 465 (Tex. 2008)).
The same is true here. Just as the PLCAA provides that certain actions “may not be brought,” section 230 contains a materially identical instruction
that “[n]o cause of action may be brought....” The two
provisions are indistinguishable with respect to
whether they create a substantive right to be free of
litigation, not just a right to be free of liability at the
end of litigation. Moreover, most federal cases interpreting section 230 hold that it confers “immunity
from suit rather than a mere defense to liability,”
which is “effectively lost if a case is erroneously permitted to go to trial.” Nemet Chevrolet, Ltd. v. Consumeraffairs.com, Inc., 591 F.3d 250, 254 (4th Cir.
2009) (quoting Brown v. Gilmore, 278 F.3d 362, 366
n.2 (4th Cir. 2002)). For this reason, federal courts
urge “resol[ution of] the question of § 230 immunity at
the earliest possible stage” of litigation so as to vindicate the provision’s protections against “costly and
protracted legal battles.” Id. at 255 (quoting Roommates.Com, 521 F.3d at 1175). As in Academy, if the
denials of Facebook’s motions to dismiss were erroneous, the company lacks an adequate appellate remedy
because its federal statutory right to avoid litigation
of this nature would be impaired if it had to await relief on appeal. In re Prudential, 148 S.W.3d at 136.

12a
Facebook moved for dismissal based solely on section 230, not on the ground that Plaintiffs’ allegations
do not state a cognizable claim under section 98.002
or under any of their other legal theories. As a result,
we do not consider whether Plaintiffs’ allegations are
sufficient to support the claims asserted. We consider
only whether Plaintiffs’ claims, as pleaded, “treat[ ]”
Facebook “as the publisher or speaker” of third-party
content in conflict with section 230. If they do, the
claims “may [not] be brought” and must be dismissed.
47 U.S.C. § 230(c)(1), (e)(3).
B. Governing Principles
When interpreting a federal statute, this Court
generally follows the decisions of the U.S. Supreme
Court. In re Morgan Stanley & Co., 293 S.W.3d 182,
189 (Tex. 2009). The Supreme Court has not addressed the scope of section 230. It has, however, often
stated principles of statutory interpretation with
which we agree. The first is that “when the statutory
language is plain,” courts “must enforce it according
to its terms.” Jimenez v. Quarterman, 555 U.S. 113,
118 (2009). “[U]nless otherwise defined, words will be
interpreted as taking their ordinary ... meaning.... at
the time Congress enacted the statute.” Perrin v.
United States, 444 U.S. 37, 42 (1979). It is a “cardinal
rule,” as well, “that a statute is to be read as a whole,
since the meaning of statutory language, plain or not,
depends on context.” King v. St. Vincent’s Hosp., 502
U.S. 215, 221 (1991). We therefore “consider not only
the bare meaning of [each] word” but also the relevant
“statutory scheme.” Bailey v. United States, 516 U.S.
137, 145 (1995). In addition, the objective meaning
conveyed by text may depend on the “backdrop

13a
against which Congress enacted [it].” Stewart v. Dutra Constr. Co., 543 U.S. 481, 487 (2005). Understanding this backdrop is crucial in construing “term[s] of
art” with “established meaning[s]” in the law. Id. We
presume, absent a contrary indication, that “Congress
intends to incorporate the well-settled meaning of
[such] common-law terms.” Neder v. United States,
527 U.S. 1, 23 (1999). Still, “the authoritative statement is the statutory text.” Exxon Mobil Corp. v. Allapattah Servs., Inc., 545 U.S. 546, 568 (2005).4
______________________
4

Both parties and amici ask us to rely on legislative history
when interpreting federal statutes, an invitation we decline. The
use of legislative history to ascertain congressional “intent” has
been quite controversial, and the Supreme Court observed recently that the practice “is vulnerable to ... serious criticisms.”
Allapattah, 545 U.S. at 568. “First, legislative history is itself often murky, ambiguous, and contradictory.” Id. It “serves as an
ever-present judicial mercenary, embraced when helpful and ignored when not,” and courts’ consultation of it often devolves into
“‘looking over a crowd and picking out your friends.’” Tex. Mut.
Ins. Co. v. Ruttiger, 381 S.W.3d 430, 457 n.5 (Tex. 2012) (Willett,
J., concurring). “Second, judicial reliance” on legislative history
permits “strategic manipulation[ ]” of the lawmaking process by
unrepresentative factions of legislators or legislative staff in order “to secure results they were unable to achieve through the
statutory text.” Allapattah, 545 U.S. at 568. More fundamentally, judicial reliance on legislative history risks attaching authoritative weight to statements not subject to “the constitutionally prescribed process of bicameralism and presentment.” John
F. Manning, Textualism as a Nondelegation Doctrine, 97
COLUM. L. REV. 673, 676 (1997). We therefore agree with the
U.S. Supreme Court’s venerable observation that, “[i]n expounding [a] law,” a “court cannot, in any degree, be influenced by ...
debate which took place on its passage.... The law as it passed is
the will of the majority of both houses, and the only mode in
which that will is spoken is in the act itself.” Aldridge v. Williams, 44 U.S. 9, 24 (1845).

14a
In addition to construing the CDA, we must also
“inquir[e] whether the laws” of Texas “have, in their
application to this case, come into collision with [this]
act of Congress, and deprived [Facebook] of a right to
which that act entitles [it]. Should this collision exist,”
state law “must yield to the law of Congress.” Gibbons
v. Ogden, 22 U.S. 1, 210 (1824) (construing U.S.
CONST. art. VI, cl. 2). Because “[p]re-emption ...
shield[s] the system from conflicting regulation of conduct,” it is “the conduct being regulated, not the formal description of governing legal standards, that is
the proper focus of concern.” Amalgamated Ass’n of
St., Elec. Ry. & Motor Coach Emps. of Am. v.
Lockridge, 403 U.S. 274, 292 (1971). Thus, the determination of whether state tort suits are preempted by
federal law depends not merely on how the claims are
labelled, but also on careful consideration of the substance of the claims. Simply because a “cause[ ] of action,” under some circumstances, “might escape ...
preemption” does not mean that the “particular ...
claims” of a given plaintiff necessarily do. Quest
Chem. Corp. v. Elam, 898 S.W.2d 819, 820 (Tex.
1995). We therefore look beyond a cause of action’s
name to the underlying conduct or duty on which it is
based. Id. at 821.5

______________________

5 The parties dispute whether the presumption against
preemption should guide our analysis of whether the CDA bars
Plaintiffs’ claims. Facebook points to recent Supreme Court
cases holding that if a “statute ‘contains an express pre-emption
clause’” (as the CDA does), courts “do not invoke any presumption against pre-emption but instead ‘focus on the plain wording
of the clause, which necessarily contains the best evidence of

15a
C. The Federal Statute
Section 230 was enacted in 1996 as part of the
“Communications Decency Act” (“CDA”). See Pub. L.
No. 104-104, § 509, 110 Stat. 56. Having determined
that the “Internet ... ha[d] flourished, to the benefit of
all Americans, with a minimum of government regulation,” Congress passed section 230 with the stated
purposes of “preserv[ing] [a] vibrant and competitive
free market ... for the Internet ..., unfettered by Federal or State regulation”; “remov[ing] disincentives”
for “utiliz[ing] ... blocking and filtering technologies”;
and “ensur[ing] vigorous enforcement of Federal criminal laws” against “obscenity, stalking, and harassment by means of computer.” 47 U.S.C. § 230(a)(4),
(b). It is widely acknowledged that section 230’s liability protections were primarily a response to Stratton
Oakmont, Inc. v. Prodigy Servs. Co., No. 31063/94,
1995 WL 323710 (N.Y. Sup. Ct. May 24, 1995). In that
case, a New York court held that an online bulletin
board could be held strictly liable for third parties’ defamatory posts. Rejecting the defendant’s argument
that it was a mere “distributor” of third-party content,
______________________

Congress’ pre-emptive intent.’” Puerto Rico v. Franklin Cal. TaxFree Tr., 136 S. Ct. 1938, 1946 (2016) (quoting Chamber of Commerce of U.S. v. Whiting, 563 U.S. 582, 594 (2011)). Plaintiffs, on
the other hand, rely on other cases explaining that the presumption applies even to statutes with an express preemption clause
if “the text of the pre-emption clause is susceptible of more than
one plausible reading,” at least “when Congress has legislated in
a field traditionally occupied by the States.” Altria Grp., Inc. v.
Good, 555 U.S. 70, 77 (2008). We will not undertake to resolve
this doctrinal dispute, as the outcome of this case would be the
same whether the presumption applies or not.

16a
the court reasoned that the defendant’s occasional
screening and editing of posts made it a primary publisher and therefore responsible for defamation by users on its platform. See id. at *4.
Section 230 “und[id] the perverse incentives created by this reasoning, which effectively penalized
providers for monitoring content.” Shiamili v. Real
Estate Grp. of N.Y., Inc., 952 N.E.2d 1011, 1016 (N.Y.
2011). It did so by mandating that “[n]o provider ... of
an interactive computer service shall be treated as the
publisher or speaker of any information provided by
another information content provider” and that “[n]o
cause of action may be brought and no liability may
be imposed ... that is inconsistent with” this prohibition. 47 U.S.C. § 230(c)(1), (e)(3). In addition to shielding interactive computer services from liability that
“treat[s]” them as “publisher[s]” or “speaker[s]” of
third-party content, section 230 also shields them
from liability for good-faith efforts to “restrict access
to or availability of material that the provider or user
considers to be obscene, lewd, lascivious, filthy, excessively violent, harassing, or otherwise objectionable....” Id. § 230(c)(2)(A). Section 230’s dual protections are commonly understood to operate in tandem,
ensuring that a website is not discouraged by tort law
from policing its users’ posts, while at the same time
protecting it from liability if it does not. See Batzel v.
Smith, 333 F.3d 1018, 1027–28 (9th Cir. 2003); Roommates.Com, 521 F.3d at 1163.
The meaning of section 230’s prohibition on treating an interactive computer service as the “publisher”
or “speaker” of third-party content is not entirely clear
on the face of the statute. Neither “publisher” nor

17a
“speaker” are defined terms, nor can those words’
common meanings tell us precisely what it means for
a cause of action to “treat[ ]” a defendant “as a publisher or speaker” of third-party content. Abundant
judicial precedent, however, provides ample guidance,
nearly all of it pointing in the same general direction.
Federal and state courts have uniformly held that section 230 “should be construed broadly in favor of immunity.” Force v. Facebook, Inc., 934 F.3d 53, 64 (2d
Cir. 2019). The overwhelming weight of precedent
“has resulted in a capacious conception of what it
means to treat a website operator as the publisher or
speaker of information provided by a third party.”
Jane Doe No. 1 v. Backpage.com, LLC, 817 F.3d 12, 19
(1st Cir. 2016). The “national consensus,” Shiamili,
952 N.E.2d at 1017, is that “all claims” against internet companies “stemming from their publication of information created by third parties” effectively treat
the defendants as publishers and are barred, Doe v.
MySpace, Inc., 528 F.3d 413, 418 (5th Cir. 2008). As it
has been interpreted, the provision “establishe[s] a
general rule that” web service providers may not be
held “legally responsible for information created ... by
third parties” if such providers “merely enable[d] that
content to be posted online.” Nemet Chevrolet, 591
F.3d at 254. The cases are equally uniform in holding
that a plaintiff in a state tort lawsuit cannot circumvent section 230 through “artful pleading” if his “allegations are merely another way of claiming that [a defendant] was liable” for harms occasioned by “thirdparty-generated content” on its website. MySpace,
528 F.3d at 420.
Plaintiffs contend that the courts have systematically misread section 230. They urge us to adopt the

18a
view recently proffered by Justice Thomas, under
which “the sweeping immunity courts have read into”
section 230 should be scaled back or at least reconsidered. Malwarebytes, 141 S. Ct. at 18 (statement respecting denial of certiorari). Justice Thomas suggests that courts have erred by confusing “publisher”
with “distributor” liability: “Traditionally, laws governing illegal content distinguished between publishers or speakers (like newspapers) and distributors
(like newsstands and libraries). Publishers.... could be
strictly liable for transmitting illegal content. But distributors” were “liable only when they knew (or constructively knew) that content was illegal.” Id. at 14.
Under this view, although section 230 “grants immunity only from ‘publisher’ or ‘speaker’ liability,” cases
interpreting the provision have incorrectly held “that
it eliminates distributor liability too” by “confer[ring]
immunity even when a company distributes content
that it knows is illegal.” Id. at 15.6
We agree that Justice Thomas’s recent writing
lays out a plausible reading of section 230’s text. The
fact remains, however, that this more restrictive view
of section 230 was articulated in a statement respecting the denial of certiorari, not in the decision of a
case, and every existing judicial decision interpreting
section 230 takes the contrary position. If the more
limited view of section 230 were compelled by a plain
reading of the statutory text, we would be compelled,
______________________

Amici the State of Texas and the Governor of Texas ask
us to take the narrower view of section 230(c)(1) suggested by
Justice Thomas. To the extent their interest in this case stems
from their disagreement with recent actions by social media com6

19a
despite the contrary precedent, to follow what the statute

says. After all, it is our “right and duty ... to interpret
and to follow ... all [federal] laws” according to our best
understanding of their meaning, subject only “to a litigant’s right of review in [the U.S. Supreme] Court.”
Idaho v. Coeur d’Alene Tribe of Idaho, 521 U.S. 261,
275, 117 S.Ct. 2028, 138 L.Ed.2d 438 (1997) (opinion
of Kennedy, J.); accord Allen v. McCurry, 449 U.S. 90,
105, 101 S.Ct. 411, 66 L.Ed.2d 308 (1980). But if the
more limited view is only one reasonable reading of
the text—and if the broader view is also reasonable—
we are hard pressed to cast aside altogether the universal approach of every court to examine the matter
over the twenty-five years of section 230’s existence.

______________________

panies like Facebook to block political speech the company deems
dangerous or misleading, see Brief of the Governor of Texas as
Amicus Curiae at 1, their complaints seem better directed at section 230(c)(2)(A), which protects internet companies from liability for censoring content the company deems “objectionable.”
That provision is not at issue here. This case involves the protections of section 230(c)(1), which has been interpreted to insulate
websites from liability for declining to censor dangerous, objectionable, or otherwise injurious content generated by third-party
users. For those who believe Facebook and other such platforms
should refuse to censor their users’ speech, it would seem that
dialing back the protections of section 230(c)(1)—and thereby expanding the civil liability these companies face for failing to censor allegedly objectionable posts—would be counterproductive.
See Zeran v. Am. Online, Inc., 129 F.3d 327, 333 (4th Cir. 1997)
(Wilkinson, C.J.) (If “[web] service providers [were] subject to liability only for the publication of information” but “not for its
removal, they would have a natural incentive simply to remove
messages,” resulting in “a chilling effect on the freedom of Internet speech.”).

20a
Justice Thomas’s view focuses on traditional distinctions in defamation law between “publishers” and
“distributors.” Malwarebytes, 141 S. Ct. at 15. But as
the Fourth Circuit in Zeran observed, in some ways
“distributor liability ... is merely a subset ... of publisher liability” within defamation law. 129 F.3d at
332. As Justice Thomas acknowledges, many authorities refer to “publishers” and “distributors,” or equivalent categories, as “primary publishers” and “secondary publishers,” respectively. Id. Section 230’s text
“precludes courts from treating internet service providers as publishers not just for the purposes of defamation law ... but in general.” Barnes v. Yahoo!, Inc.,
570 F.3d 1096, 1104 (9th Cir. 2009). Thus, it is not a
clear departure from the statutory text to understand
section 230’s use of the word “publisher” to include
both “primary” and “secondary” publishers—that is,
to view “publisher” in the broader, generic sense
adopted in Zeran and the many decisions following it.
Neither would it be unreasonable to conclude that, in
this context, the “publisher” liability covered by section 230 should be distinguished from “distributor” liability, which section 230 does not mention. As a textual matter, both the broad and the narrow senses of
the word “publisher” are viable readings of section
230(c)(1).
Which reading is superior, given the statutory
context and the other canons of construction, is a
question the U.S. Supreme Court may soon take up.
Justice Thomas may be correct that many courts interpreting section 230 have “filter[ed] their decisions

21a
through ... policy argument[s]” or otherwise “emphasized nontextual” considerations. Malwarebytes, 141
S. Ct. at 14, 18. In the end, however, the construction
of the provision at which these courts have arrived is
a defensible reading of its plain language. Imposing a
tort duty on a social media platform to warn of or protect against malicious third-party postings would in
some sense “treat” the platform “as a publisher” of the
postings by assigning to the platform editorial or oversight duties commonly associated with publishers. See
Green v. Am. Online (AOL), 318 F.3d 465, 471 (3d Cir.
2003) (explaining that “decisions relating to the monitoring, screening, and deletion of content from” a
platform or network are “actions quintessentially related to a publisher’s role”).
It also bears mentioning that Congress, with
knowledge of the prevailing judicial understanding of
section 230, has twice expanded its scope. See Lorillard v. Pons, 434 U.S. 575, 581 (1978) (When Congress “adopts a new law incorporating sections of a
prior law, [it] normally can be presumed to have had
knowledge of the interpretation given to the incorporated law[.]”). First, in 2002, Congress extended section 230 protections to an additional class of entities.
47 U.S.C. § 941(e)(1) (promoting a child-friendly segment of the internet and extending section 230’s protections to many of those involved). Second, in 2010,
Congress mandated that U.S. courts “shall not recognize or enforce” foreign defamation judgments that
are inconsistent with section 230, while also making
clear that “[n]othing in” the applicable sections of the
2010 statute “shall be construed to ... limit the applicability of section 230 ... to causes of action for defamation.” 28 U.S.C. § 4102(c),

22a
recognized that these legislative extensions of CDA
immunity, modest as they were, are nonetheless some
evidence of Congress’s lack of objection to the courts’
interpretation of section 230.7
Finally, the broader view of section 230, which
originated with Zeran, has been widely accepted in
both state and federal courts, including by the Fifth
Circuit. See MySpace, 528 F.3d at 418–20. This Court,
while bound only by decisions of the U.S. Supreme
Court, is generally hesitant to contradict the “overwhelming weight of authority” from both lower federal courts and state courts on federal questions. In re
Morgan Stanley, 293 S.W.3d at 189. We have been especially “reluctant to depart from the Fifth Circuit’s”
construction of federal statutes, as doing so “would allow parties in Texas to choose how the statute will be
applied merely by choosing a court system.” W & T
Offshore, Inc. v. Fredieu, 610 S.W.3d 884, 892 n.1
(Tex. 2020). As a state court interpreting a federal
statute where all existing precedent adopts one of
multiple plausible readings of the statutory text, our
best course is to follow the precedent.
None of this is to suggest that this Court or any
other should “resolve questions such as the one before

______________________
7

See Barrett v. Rosenthal, 146 P.3d 510, 523 (2006); Doe ex
rel. Roe v. Backpage.com, LLC, 104 F. Supp. 3d 149, 155–56 (D.
Mass. 2015), aff’d, 817 F.3d 12; Jones v. Dirty World Entm’t Recordings LLC, 755 F.3d 398, 408 (6th Cir. 2014); see also Roommates.Com, 521 F.3d at 1187–88 (McKeown, J., concurring in
part and dissenting in part).

23a
us by a show of hands.” CSX Transp., Inc. v. McBride,
564 U.S. 685, 715 (2011) (Roberts, C.J., dissenting).
No “weight of authority” is overwhelming enough to
justify departure from unequivocal statutory text. But
when faced with a statute that reasonably lends itself
to multiple readings, we promote stability and predictability in the law by adopting the position unanimously taken by other courts if the text permits. Here
in particular, we must be mindful that “across the
country, ... entities and individuals doing business”
using the internet “have for many years relied on” the
broad immunity from suit conferred by section 230 as
interpreted by the courts, “negotiating their contracts
and structuring their ... transactions against a backdrop of [that] immunity.” Michigan v. Bay Mills Indian Cmty., 572 U.S. 782, 798–99 (2014). Plaintiffs’
narrow view of section 230, while textually plausible,
is not so convincing as to compel us to upset the many
settled expectations associated with the prevailing judicial understanding of section 230.8
______________________
8

Even if we were to adopt the position that section 230 affords protection from “publisher” but not “distributor” liability,
it is not clear that Plaintiffs’ common-law claims would survive.
The common law imposed on a distributor “no duty to examine
the various publications that he offers ... to ascertain whether
they contain any defamatory items. Unless there are special circumstances” suggesting “a particular publication is defamatory,
he is under no duty to ascertain its ... character.” RESTATEMENT (SECOND) OF TORTS § 581, cmt. d (1977) (emphasis
added). Proof of Facebook’s actual or constructive knowledge of
any particular communication’s wrongful character is not an element of Plaintiffs’ claims (nor do Plaintiffs allege such specific
knowledge on Facebook’s part). As a result, interpreting section
230 to allow traditional distributor liability to be imposed on Facebook might not save these claims from dismissal.

24a
D. Plaintiffs’ Common-Law Claims
The essence of Plaintiffs’ negligence, gross-negligence, negligent-undertaking, and products-liability
claims is that, because Plaintiffs were users of Facebook or Instagram, the company owed them a duty to
warn them or otherwise protect them against recruitment into sex trafficking by other users. Facebook violated that duty, Plaintiffs contend, by its failures to
“implement any safeguards to prevent adults from
contacting minors,” “report suspicious messages,”
“warn[ ] of the dangers posed by sex traffickers,” or
“identify[ ] sex traffickers on its Platforms.” Under the
view of section 230 adopted in every published decision of which we are aware, these claims “treat[ ]” Facebook “as the publisher or speaker” of third-party
communication and are therefore barred.
Plaintiffs argue that their common-law claims do
not treat Facebook as a “publisher” or “speaker” because they “do not seek to hold [it] liable for exercising
any sort of editorial function over its users’ communications,” but instead merely for its own “failure to implement any measures to protect them” from “the dangers posed by its products.” Yet this theory of liability,
while phrased in terms of Facebook’s omissions,
would in reality hold the company liable simply because it passively served as an “intermediar[y] for
other parties’ ... injurious messages.” Zeran, 129 F.3d
at 330–31. Put differently, “the duty that [Plaintiffs]
allege[ ] [Facebook] violated” derives from the mere
fact that the third-party content that harmed them
was transmitted using the company’s platforms,
which is to say that it “derives from [Facebook’s] status ... as a ‘publisher or speaker’” of that content.
Barnes, 570 F.3d at 1102. These claims seek to impose

25a
liability on Facebook for harm caused by malicious users of its platforms solely because Facebook failed to
adequately protect the innocent users from the malicious ones. All the actions Plaintiffs allege Facebook
should have taken to protect them—warnings, restrictions on eligibility for accounts, removal of postings, etc.—are actions courts have consistently viewed
as those of a “publisher” for purposes of section 230.
Regardless of whether Plaintiffs’ claims are couched
as failure to warn, negligence, or some other tort of
omission, any liability would be premised on secondguessing of Facebook’s “decisions relating to the monitoring, screening, and deletion of [third-party] content from its network.” Green, 318 F.3d at 471.
This is no less true simply because Facebook’s alleged negligent omissions include failures to “require
accounts for minors to be linked to those of adults” or
“deprive known criminals from having accounts.”
These claims may be couched as complaints about Facebook’s “design and operation” of its platforms “rather than ... its role as a publisher of third-party content,” but the company’s “alleged lack of safety features ‘is only relevant to [Plaintiffs’] injur[ies] to the
extent that such features’” would have averted wrongful communication via Facebook’s platforms by third
parties. Herrick v. Grindr LLC, 765 Fed. Appx. 586,
590 (2d Cir. 2019) (quoting Herrick v. Grindr, LLC,
306 F. Supp. 3d 579, 591 (S.D.N.Y. 2018)). At bottom,

26a
these “claims seek to hold” Facebook” liable for its failure to combat or remove offensive third-party content,
and are barred by § 230.” Id.9
Plaintiffs’ failure-to-warn theory suffers from the
same infirmities. The warnings Plaintiffs seek would
only be necessary because of Facebook’s allegedly inadequate policing of third-party content transmitted
via its platforms. “Although it is indirect, liability under such a theory nevertheless” ultimately arises from
the company’s transmission of the harmful content.
Herrick, 306 F. Supp. 3d at 591. Moreover, “a warning
about third-party content is a form of editing, just as
much as a disclaimer printed at the top of a page of
classified ads in a newspaper would be.” Id. at 592 n.8;
accord McDonald v. LG Elecs. USA, Inc., 219 F. Supp.
3d 533, 538 (D. Md. 2016).

______________________
9

Plaintiffs argue that their claims may proceed because
they “are not based on Facebook’s decision[s] to publish or alter
certain content.” But it is irrelevant whether the allegedly tortious conduct relates to “certain” third-party content or to thirdparty content in general. “If the cause of action ... would treat the
[defendant] as the publisher of a particular posting, [section 230]
immunity applies not only for ... decisions with respect to that
posting, but also for ... decisions about how to treat postings generally.” Universal Commc’n Sys., Inc. v. Lycos, Inc., 478 F.3d 413,
422 (1st Cir. 2007). Facebook’s decision not to combat potentially
harmful communication “by changing its web site policies” on
warnings, flagging of messages, or who may establish an account
on its platforms “was as much an editorial decision” regarding
third-party content “as a decision not to delete a particular posting.” Id.; cf. Miami Herald Pub. Co. v. Tornillo, 418 U.S. 241, 258
(1974).

27a
Plaintiffs’ products-liability claims are likewise
premised on the alleged failure by Facebook to
“provid[e] adequate warnings and/or instructions regarding the dangers of ‘grooming’ and human trafficking” on its platforms. Like Plaintiffs’ other commonlaw claims, these claims seek to hold Facebook liable
for failing to protect Plaintiffs from third-party users
on the site. For that reason, courts have consistently
held that such claims are barred by section 230. This
has been the unanimous view of other courts confronted with claims alleging that defectively designed
internet products allowed for transmission of harmful
third-party communications. See Herrick, 765 Fed.
Appx. at 590; Inman v. Technicolor USA, Inc., No. 11cv-666, 2011 WL 5829024, at *8 (W.D. Pa. Nov. 18,
2011); Doe v. MySpace, Inc., 629 F. Supp. 2d 663 (E.D.
Tex. 2009).10

______________________
10

While there have been a few instances in which productsliability claims against websites have been allowed to proceed
despite defendants’ CDA objections, see Bolger v. Amazon.com,
LLC, 267 Cal. Rptr. 3d 601, 626–27 (Ct. App. 2020); Erie Ins. Co.
v. Amazon.com, Inc., 925 F.3d 135, 139–40 (4th Cir. 2019); State
Farm Fire & Cas. Co. v. Amazon.com, Inc., 390 F. Supp. 3d 964,
973–74 (W.D. Wis. 2019), plaintiffs in those cases alleged that
defendants provided tangible goods that caused physical injury
or property damage. Here, by contrast (as in other cases in which
products-liability claims have been held barred by section 230),
the allegedly harmful attribute of Facebook’s “products” was that
they permitted transmission of third-party communication that
resulted in harm to Plaintiffs.

28a
This result aligns with the Fifth Circuit’s 2008 decision in a case involving very similar facts. There, the
plaintiff and a sexual predator “met and exchanged
personal information” using the defendant’s website,
“which eventually led to an in-person meeting and the
sexual assault of [the plaintiff].” MySpace, 528 F.3d at
419 (quoting Doe v. MySpace, Inc., 474 F. Supp. 2d
843, 849 (W.D. Tex. 2007)). The court held that the
plaintiff’s claims were “barred by the CDA” because
her allegation that the defendant was “liable for its
failure to implement measures that would have prevented [the plaintiff] from communicating with [her
attacker]” was “merely another way of claiming that
[the defendant] was liable for publishing the communications.” Id. at 420. Courts around the country have
consistently held that section 230 protects defendants
from similar claims of failure to warn of harmful
third-party content or negligent failure to protect users from third-party content.11

______________________
11

For cases involving failure to warn, see Herrick, 765 Fed.
Appx. 586; Doe v. Kik Interactive, Inc., 482 F. Supp. 3d 1242 (S.D.
Fla. 2020); McMillan v. Amazon.com, Inc., 433 F. Supp. 3d 1034,
1045 (S.D. Tex. 2020); McDonald, 219 F. Supp. 3d at 538; Hinton
v. Amazon.com.dedc, LLC, 72 F. Supp. 3d 685, 687, 692 (S.D.
Miss. 2014); and Oberdorf v. Amazon.com Inc., 930 F.3d 136, 153
(3d Cir. 2019), reh’g en banc granted, opinion vacated, 936 F.3d
182 (3d Cir. 2019). For cases involving negligence or related
causes of action, see Zeran, 129 F.3d at 332; Green, 318 F.3d at
471; Daniel v. Armslist, LLC, 926 N.W.2d 710, 725–26 (Wis.
2019); MySpace, 528 F.3d at 420; Barnes, 570 F.3d at 1103; and
Klayman v. Zuckerberg, 753 F.3d 1354, 1359 (D.C. Cir. 2014).

29a
Plaintiffs rely heavily on one federal appellate decision that denied CDA immunity to a website operator sued for failure to warn of the risk that sexual
predators would use the site to lure victims. In that
case, however, the plaintiff’s failure-to-warn claim
had “nothing to do with [the defendant’s] efforts, or
lack thereof, to edit, monitor, or remove user generated content.” Doe v. Internet Brands, Inc., 824 F.3d
846, 852, 853 (9th Cir. 2016). Instead, the plaintiff
claimed that the defendant was liable based on its actual knowledge of the particular rape scheme of which
she was a victim. The defendant obtained that
knowledge not “from any monitoring of postings on
[its] website,” but instead “from an outside source of
information.” Id. at 851, 853. Indeed, the plaintiff did
not “allege that [her rapists] posted anything to the
website” or that she was “lured by any posting that
[the defendant] failed to remove.” Id. at 851. Internet
Brands is therefore “best read as holding that the
CDA does not immunize an [interactive computer service] from a failure to warn claim when the alleged
duty to warn arises from something other than usergenerated content.” Herrick, 306 F. Supp. 3d at 592.
“By contrast,” Plaintiffs’ “proposed warning in this
case would be about user-generated content itself.” Id.
Plaintiffs further argue that section 230’s prohibition on “treat[ing] an internet company as a ‘publisher
or speaker’” preempts only suits that “allege or implicate defamation,” since this was the primary “kind of
liability Congress had in mind” when it enacted the
provision. This proposed limitation on section 230 has
been rejected by every court that has considered it.
See Force, 934 F.3d at 64 n.18. Given that “Congress

30a
enacted the [CDA] in part to respond” to Stratton Oakmont, the “cause of action most frequently associated
with ...section 230 is defamation.” Barnes, 570 F.3d at
1101. “But statutory prohibitions often go beyond the
principal evil.... Congress was concerned with when it
enacted [them]...., and it is ultimately the provisions
of our laws rather than the principal concerns of our
legislators by which we are governed.” Oncale v. Sundowner Offshore Servs., Inc., 523 U.S. 75, 79 (1998).
Section 230’s text neither mentions defamation nor
“limit[s] its application to defamation cases.” Barnes,
570 F.3d at 1101. Courts have recognized as much by
extending section 230 to “a wide variety” of claims,
“including housing discrimination,” “securities fraud,”
and “cyberstalking.” Backpage.com, 817 F.3d at 19.
In sum, Plaintiffs’ claims for negligence, gross
negligence, negligent undertaking, and products liability—all premised on Facebook’s alleged failures to
warn or to adequately protect Plaintiffs from harm
caused by other users—are barred by section 230 and
must be dismissed.
E. Statutory Claims
Plaintiffs also sued Facebook under a Texas statute creating a civil cause of action against anyone
“who intentionally or knowingly benefits from participating in a venture that traffics another person.”
TEX. CIV. PRAC. & REM. CODE § 98.002(a). According to
Plaintiffs, Facebook violated this statute through
such “acts and omissions” as “knowingly facilitating
the sex trafficking of [Plaintiffs]” and “creat[ing] a
breeding ground for sex traffickers to stalk and entrap
survivors.” As explained below, we conclude that section 230 does not bar these claims.

31a
The relevant language in section 98.002(a) is borrowed almost verbatim from the Texas statute criminalizing the same conduct. See TEX. PENAL CODE §
20A.02(a). The text of that law itself closely resembles
a federal statute. See 18 U.S.C. § 1591(a).12 Liability
under these statutes requires a showing that a defendant acquired a benefit by “participat[ing]” in a human-trafficking “venture.” Such “participation” connotes more than mere passive acquiescence in trafficking conducted by others. This much is evident from
the common meaning of “participate,” representative
definitions of which include, “[t]o be active or involved
in something; take part,” AMERICAN HERITAGE DICTIONARY OF THE ENGLISH LANGUAGE (5th ed. 2016)
(emphasis added); and, “to take part, be or become actively involved, or share (in),” COLLINS ENGLISH DICTIONARY (12th ed. 2014) (emphasis added). Definitions
vary, of course, but a common thread among them is
the understanding that “participation” consists, at a
minimum, of some affirmative act.13

______________________
12

Section 1591 makes it a crime to “knowingly ... benefit[ ],
financially or by receiving anything of value, from participation
in a venture which has engaged in” sex trafficking, as defined by
the statute. 18 U.S.C. § 1591(a).
13

See, e.g., Participation, BLACK’S LAW DICTIONARY (11th ed.
2019) (“The act of taking part in something....”) (emphasis
added); Participation, CAMBRIDGE BUSINESS ENGLISH DICTIONARY (2011) (“the act of taking part in an event or activity”); Participation, OXFORD ADVANCED AMERICAN DICTIONARY (2011)
(“the act of taking part in an activity or event”).

32a
Courts analyzing what it means to “participate” in
a “venture” in the criminal context have consistently
required more than passive acquiescence in the
wrongdoing of others. “Participation” typically entails, at a minimum, an overt act in furtherance of the
venture. See, e.g., United States v. Hewitt, 663 F.2d
1381, 1385 (11th Cir. 1981) (“To prove participation,
the evidence must show that the defendant committed
an overt act designed to aid in the success of the venture.”).14 A similar standard is regularly applied in
the civil context as well.15 This overt-act conception
of “participation” is further supported by a recent decision construing 18 U.S.C. § 1591(a), the federalcriminal analog of section 98.002(a) of the Civil Practice and Remedies Code. The Sixth Circuit held that
in order to prove “participat[ion]” in a “venture” for
section 1591(a) purposes, “a defendant [must have]
actually ... commit[ted] some ‘overt act’ that furthers

______________________
14

Accord United States v. Pope, 739 F.2d 289, 291 (7th Cir.
1984); United States v. Searan, 259 F.3d 434, 444 (6th Cir. 2001);
United States v. Longoria, 569 F.2d 422, 425 (5th Cir. 1978);
Paredes v. State, 129 S.W.3d 530, 536 (Tex. Crim. App. 2004);
Kutzner v. State, 994 S.W.2d 180, 187 (Tex. Crim. App. 1999).
15

See Landy v. Fed. Deposit Ins. Corp., 486 F.2d 139, 163–
64 (3d Cir. 1973); IIT, an Intern. Inv. Tr. v. Cornfeld, 619 F.2d
909, 922, 925 (2d Cir. 1980), abrogated on other grounds by Morrison v. Nat’l Austl. Bank Ltd., 561 U.S. 247 (2010); Zoelsch v.
Arthur Andersen & Co., 824 F.2d 27, 35–36 (D.C. Cir. 1987), abrogated on other grounds by Morrison, 561 U.S. 247; In re Amaranth Nat. Gas Commodities Litig., 730 F.3d 170, 182 (2d Cir.
2013); SEC v. Quiros, No. 16-CV-21301, 2016 WL 11578637, at
*15 (S.D. Fla. Nov. 21, 2016).

33a
the sex trafficking aspect of the venture.” United
States v. Afyare, 632 Fed. Appx. 272, 286 (6th Cir.
2016). “[T]he statute d[oes] not criminalize ... ‘mere
negative acquiescence.’” Id. (quoting United States v.
Afyare, No. 3:10-CR-00260, 2013 WL 2643408, at *12
(M.D. Tenn. June 12, 2013)).16
“In construing” section 98.002(a), “we presume
that the Legislature acted with knowledge of th[is]
background law and with reference to it.” City of
Round Rock v. Rodriguez, 399 S.W.3d 130, 137 (Tex.
2013). By employing terms such as “participat[ion]”
and “venture,” which have well-established meanings
in related legal contexts, the legislature is presumed
to have adopted the prevailing judicial understanding
of those words. Thus, to charge Facebook with “intentionally or knowingly benefit[ting] from participating
in a [trafficking] venture” is to charge it with “some
affirmative conduct”—that is, “an overt act” beyond
“mere negative acquiescence”—”designed to aid in the
success of the venture.” Longoria, 569 F.2d at 425. It
follows that a claim under section 98.002 arises not

______________________
16

Unlike TEX. CIV. PRAC. & REM. CODE § 98.002(a), section
1591 now expressly defines “participation in a venture” as
“knowingly assisting, supporting, or facilitating a violation” of
the statute’s sex-trafficking prohibition. This definition, however, was added by FOSTA in 2018. See Pub. L. No. 115-164, § 5.
Afyare reached its conclusion about the meaning of “participation” without the benefit of any statutory definition, so the case
remains persuasive authority on the same word’s meaning in
section 98.002(a).

34a
merely from a website’s failure to take action in response to the injurious communications of others, but
instead from the website’s own affirmative acts to facilitate injurious communications.
This distinction—between passive acquiescence
in the wrongdoing of others and affirmative acts encouraging the wrongdoing—is evident in Plaintiffs’ allegations, which we construe liberally at the Rule-91a
stage. See City of Dallas v. Sanchez, 494 S.W.3d 722,
725 (Tex. 2016). While many of Plaintiffs’ allegations
accuse Facebook of failing to act as Plaintiffs believe
it should have, the section 98.002 claims also allege
overt acts by Facebook encouraging the use of its platforms for sex trafficking. For instance, the petitions
state that Facebook “creat[ed] a breeding ground for
sex traffickers to stalk and entrap survivors”; that
“Facebook ... knowingly aided, facilitated and assisted
sex traffickers, including the sex trafficker[s] who recruited [Plaintiffs] from Facebook” and “knowingly
benefitted” from rendering such assistance; that “Facebook has assisted and facilitated the trafficking of
[Plaintiffs] and other minors on Facebook”; and that
Facebook “uses the detailed information it collects
and buys on its users to direct users to persons they
likely want to meet” and, “[i]n doing so, ... facilitates
human trafficking by identifying potential targets,
like [Plaintiffs], and connecting trafficker s with those
individuals.” Read liberally in Plaintiffs’ favor, these

35a
statements may be taken as alleging affirmative acts
by Facebook to encourage unlawful conduct on its
platforms.17
The available precedent indicates that Facebook
enjoys no CDA immunity from claims founded on such
allegations. For instance, the Ninth Circuit has held
that defendants lose their CDA immunity if they go
beyond acting as “passive transmitter[s] of information provided by others.” Roommates.Com, 521
F.3d at 1166. A defendant that operates an internet
platform “in a manner that contributes to,” or is otherwise “directly involved in,” “the alleged illegality” of
third parties’ communication on its platform is “not
immune.” Id. at 1169. Here, Plaintiffs’ statutory cause
of action is predicated on allegations of Facebook’s affirmative acts encouraging trafficking on its platforms. These allegations differ from Plaintiffs’ common-law claims, under which Facebook is accused
only of “providing neutral tools to carry out what may
be unlawful or illicit” communication by its users. Id.
The common-law claims are “based on [Facebook’s]
passive acquiescence in the misconduct of its users,”
for which the company is “entitled to CDA immunity.”
Id. at 1169 n.24. Like the Ninth Circuit, however, we
understand the CDA to stop short of immunizing a defendant for its “affirmative acts ... contribut[ing] to
any alleged unlawfulness” of “user-created content.”
______________________
17

We do not address whether, at the Rule-91a stage, Plaintiffs’ claims have “no basis in law, no basis in fact, or both” for
some reason other than section 230. In this mandamus proceeding, we consider only the section 230 arguments raised in Facebook’s motions to dismiss.

36a
Id. Facebook’s alleged violations of TEX. CIV. PRAC. &
REM. CODE § 98.002(a) fall in the latter category.
These allegations do not treat Facebook as a publisher
who bears responsibility for the words or actions of
third-party content providers. Instead, they treat Facebook like any other party who bears responsibility
for its own wrongful acts. Other courts have drawn a
similar line. See, e.g., FTC v. Accusearch Inc., 570 F.3d
1187, 1199–201 (10th Cir. 2009); J.S. v. Vill. Voice Media Holdings, LLC, 359 P.3d 714, 718 (2015); Dirty
World Entm’t Recordings, 755 F.3d at 413.
We find it highly unlikely that Congress, by prohibiting treatment of internet companies “as ... publisher[s],” sought to immunize those companies from
all liability for the way they run their platforms, even
liability for their own knowing or intentional acts as
opposed to those of their users. Section 230 itself declares it “the policy of the United States ... to ensure
vigorous enforcement of Federal criminal laws”
against “obscenity, stalking, and harassment by
means of computer.” 47 U.S.C. § 230(b). Nothing in
section 230’s operative text goes so far as to “create a
lawless no-man’s-land on the Internet” in which
online platforms like Facebook are free to actively encourage human trafficking. Roommates.Com, 521
F.3d at 1164.

37a
This view of section 230 conflicts directly with the
First Circuit’s 2016 decision in Jane Doe No. 1 v.
Backpage.com, LLC, 817 F.3d 12.18 Congress, however, responded to the Backpage decision in 2018 by
enacting the “Allow States and Victims to Fight
Online Sex Trafficking Act” (“FOSTA”), Pub. L. No.
115-164, 132 Stat. 1253. FOSTA provides that
“[n]othing in [section 230] (other than subsection
(c)(2)(A)) shall be construed to impair or limit any
claim in a civil action brought under section 1595 of
Title 18, if the conduct underlying the claim constitutes a violation of section 1591 of that title.” 47
U.S.C. § 230(5).
Both parties argue that FOSTA’s changes to section 230 support their positions. As Facebook understands FOSTA, the 2018 amendments carved out particular causes of action from the scope of what section
230 otherwise covers. These carved-out claims include
a civil action under 18 U.S.C § 1595 and certain state
criminal prosecutions but not civil human-trafficking
claims under state statutes. Although a state-law
claim under section 98.002 looks much like the federal
cause of action created by section 1595, the similarity
______________________
18

In that case, the plaintiffs sued under 18 U.S.C § 1595,
alleging that the defendant website operator “engaged in a
course of conduct designed to facilitate sex traffickers’ efforts to
advertise their victims on [its] website,” which allegedly “led to
[the plaintiffs’] victimization.” 817 F.3d at 16. The plaintiffs’
pleadings laid out many ways in which the defendant had intentionally facilitated illegal activities on its site. Id. at 20. The First
Circuit, however, held that the defendant was nevertheless entitled to section 230 immunity.

38a
does not transform Plaintiffs’ statutory claims into
suits “brought under” section 1595. In Facebook’s
view, Congress’s “meticulous ... enumeration of exemptions ... confirms that courts are not authorized to
create additional exemptions.” Law v. Siegel, 571 U.S.
415, 424 (2014).19
Plaintiffs disagree. They concede that FOSTA
does not explicitly except civil human-trafficking
claims under state statutes from section 230’s reach.
But FOSTA’s silence in that regard does not answer
whether such claims fell under section 230 to begin
with. According to Plaintiffs, the effect of FOSTA was
not, as Facebook assumes, to carve out discrete claims
that would otherwise have been barred by section 230.
Instead, FOSTA reflects Congress’s judgment that
such claims were never barred by section 230 in the
first place. Under this reading, FOSTA’s “exception”
to section 230 immunity for federal section 1595
claims is not merely an exception. Instead, it is Congress’s announcement of a rule of construction for section 230(c), under which human-trafficking claims
like those found in section 1595 were never covered by
section 230. In Plaintiffs’ view, by indicating that
Backpage was wrong and that section 230 should not
_____________________
19

If section 230(c) did not cover Plaintiffs’ statutory human-trafficking claims prior to FOSTA, it cannot be the case that
FOSTA brought those claims back under section 230 by failing
to specifically exclude them. FOSTA itself disclaims any such result: “Nothing in ... the[se] amendments ... shall be construed to
... preempt any civil action” filed after their enactment that was
not “preempted by section 230“ as it was “in effect on the day
before” the amendments’ enactment. Pub. L. No. 115-164, § 7.

39a
be interpreted to bar federal civil statutory humantrafficking claims, Congress must also have been indicating that analogous state civil statutory humantrafficking claims likewise are not barred. After all,
there is no conceivable difference between the two categories of claims with respect to whether they “treat”
defendants as “speakers or publishers.”
For two reasons, we find Plaintiffs’ view of
FOSTA’s impact more convincing. First, what Facebook calls FOSTA’s “exceptions” to section 230 are not
introduced with statutory language denoting carveouts (such as “notwithstanding” or “except that ...”).
Instead, Congress instructed that “[n]othing in [section 230] ... shall be construed to impair” certain
claims. The U.S. Supreme Court, in interpreting a
materially identical proviso, declined to view it “as establishing an exception to a prohibition that would
otherwise reach the conduct excepted.” Edward J. DeBartolo Corp. v. Fla. Gulf Coast Bldg. & Constr.
Trades Council, 485 U.S. 568, 582 (1988). Rather, the
language in question “ha[d] a different ring to it.” Id.
A clause stating that the provision to which it applies
“ ‘shall not be construed’ to forbid certain [activity],”
was, in the Court’s view, better read as “a clarification
of the meaning of [the provision] rather than an exception” to its general coverage. Id. at 586. The Court
agreed with the Eleventh Circuit, which had also understood the “shall not be construed” clause as “explain[ing] how the [section] should be interpreted rather than creating an exception” to it. Fla. Gulf Coast
Bldg. & Constr. Trades Council v. NLRB, 796 F.2d
1328, 1344 (11th Cir. 1986). Other courts have construed similar statutory language in the same way.20

40a
Following this line of reasoning, we do not read
FOSTA’s instruction that “[n]othing in [section 230] ...
shall be construed to impair or limit any ... civil action
brought under [18 U.S.C §] 1595” to merely except section 1595 claims from the scope of what section 230
would otherwise cover. Rather, the FOSTA proviso
announces a rule of construction applicable to section
230. Congress’s mandate that section 230 not “be construed” to bar federal civil statutory human-trafficking claims necessarily dictates that section 230 must
not be construed to bar materially indistinguishable
state civil claims either. The elements of the two
claims are very similar. If liability under federal section 1595 would not treat defendants as “speakers or
publishers” within the meaning of section 230, it is
hard to understand how liability under Texas’s section 98.002 could possibly do so.
Second, another textual indicator favors Plaintiffs’ understanding of FOSTA’s effects. The “Sense of
Congress,” enacted as part of FOSTA’s text, was that
______________________
20

See, e.g., Garnett v. Renton Sch. Dist. No. 403, 987 F.2d
641, 645 (9th Cir. 1993) (interpreting statutory proviso that began, “[n]othing in this [act] shall be construed ...” as announcing
“not exceptions to the Act,” but rather “rules of construction” that
“instruct ... court[s] how to interpret the Act’s central command[s]”); accord Gov’t of Guam ex rel. Guam Econ. Dev. Auth.
v. United States, 179 F.3d 630, 635 (9th Cir. 1999); see also Hoffman v. Hunt, 126 F.3d 575, 582 (4th Cir. 1997) (interpreting
state statutory proviso that began, “[t]his section shall not prohibit [certain activities]” as “[b]y its terms, ... prohibit[ing] nothing; rather, it serves as a rule of construction.... designed to assure that the ... statute is not construed to reach” particular conduct); Hammerman & Gainer, Inc. v. Bullock, 791 S.W.2d 330,
333 (Tex. App.—Austin 1990, no writ) (similar).

41a
“section 230 of the [CDA] was never intended to provide legal protection to ... websites that facilitate traffickers in advertising the sale of unlawful sex acts
with sex trafficking victims.” Pub. L. No. 115-164, § 2.
If section 230 was “never intended” to immunize defendants against claims brought pursuant to 18 U.S.C
§ 1595, it stands to reason that the provision also
never afforded immunity from analogous state-law
causes of action. The “Sense of Congress” is merely a
declaratory rather than an operative provision. But
there is widespread agreement that “[a] preamble,
purpose clause, or recital is a permissible indicator of
meaning.” ANTONIN SCALIA & BRYAN A. GARNER,
READING LAW: THE INTERPRETATION OF LEGAL TEXTS
193, 194 (2012). When the text itself is indeterminate,
such a provision “is a key to open the mind of the makers, as to ... the objects, which are to be accomplished
by ... [a] statute.” Id. (quoting 1 JOSEPH STORY, COMMENTARIES ON THE CONSTITUTION OF THE UNITED
STATES § 459 (1833)). Facebook is correct that such
prefatory language “cannot enlarge or confer powers,
nor control the words of the act, unless they are doubtful or ambiguous.” Yazoo & M.V.R. Co. v. Thomas, 132
U.S. 174, 188 (1889). Yet as we noted above, the parties advance two competing understandings of
FOSTA’s impact on section 230. If both are plausible,
courts are justified in consulting the enacted “Sense
of Congress” when choosing between them.
FOSTA thus provides additional support for our
conclusion that section 230(c) does not bar Plaintiffs’
claims alleging Facebook’s affirmative acts in violation of section 98.002. These claims may proceed to
further litigation, although we express no opinion on

42a
their viability at any later stage of these cases. Because Plaintiffs’ common-law claims are barred by
section 230, however, we hold that the district courts
abused their discretion by failing to grant Facebook’s
motions to dismiss those claims. We further conclude,
as explained above, that Facebook has no other adequate remedy for the district courts’ improper refusals
to dismiss those claims.
III. Conclusion
The internet today looks nothing like it did in
1996, when Congress enacted section 230. The Constitution, however, entrusts to Congress, not the courts,
the responsibility to decide whether and how to modernize outdated statutes. Perhaps advances in technology now allow online platforms to more easily police their users’ posts, such that the costs of subjecting
platforms like Facebook to heightened liability for
failing to protect users from each other would be outweighed by the benefits of such a reform. On the other
hand, perhaps subjecting online platforms to greater
liability for their users’ injurious activity would reduce freedom of speech on the internet by encouraging
platforms to censor “dangerous” content to avoid lawsuits. Judges are poorly equipped to make such judgments, and even were it otherwise, “[i]t is for Congress, not this Court, to amend the statute if it believes” it to be outdated. Dodd v. United States, 545
U.S. 353, 359–60 (2005).
The petition for writ of mandamus is denied in
part and conditionally granted in part. The district
courts are directed to dismiss Plaintiffs’ claims
against Facebook for negligence, gross negligence,

43a
negligent undertaking, and products liability. Plaintiffs’ claims under section 98.002 of the Civil Practice
and Remedies Code may proceed. We are confident
the district courts will comply, and the writ will issue
only if they do not.
___________________
James D. Blacklock
Justice
OPINION DELIVERED: June 25, 2021

44a
APPENDIX B
Petitions for Writ of Mandamus Denied and
Memorandum Majority and Dissenting Opinions filed April 28, 2020.
THE STATE OF TEXAS
In the
FOURTEENTH COURT OF APPEALS
________________________
NO. 14-19-00845-CV
NO. 14-19-00847-CV
________________________
IN RE FACEBOOK, INC. AND FACEBOOK,
INC. D/B/A INSTAGRAM, Relators
_________________________________________________
ORIGINAL PROCEEDING
WRIT OF MANDAMUS
334th District Court
Harris County, Texas
Trial Court Cause Nos. 2018-69816, 2018-82214
_________________________________________________
________________________
NO. 14-19-00886-CV
________________________
IN RE FACEBOOK INC. D/B/A INSTAGRAM,
Relator

45a
_________________________________________________
ORIGINAL PROCEEDING
WRIT OF MANDAMUS
151st District Court
Harris County, Texas
Trial Court Cause No. 2019-16262
_________________________________________________
MEMORANDUM MAJORITY OPINION
Each plaintiff in the underlying cases is a minor
who connected on Facebook or Instagram (collectively,
“Facebook”) with individuals who forced them into human trafficking. The plaintiffs seek to hold Facebook
liable for damages resulting from being victimized by
trafficking. Facebook filed a Rule 91a1 motion to dismiss each plaintiff’s case against Facebook based on
an immunity provision under a Federal statute
known as the Communications Decency Act. See 47
U.S.C. § 230.
Facebook filed two petitions for writ of mandamus
in this court. See Tex. Gov’t Code Ann. § 22.221; see
also Tex. R. App. P. 52. In the first petition filed in our
case numbers 14-19-00845-CV and 14-19-00847-CV,
Facebook asks this court to compel the Honorable Steven Kirkland, presiding judge of the 334th District
Court of Harris County, to set aside his May 23, 2019
orders denying Facebook’s Rule 91a motions to dismiss.
______________________
1

See Tex. R. Civ. P. 91a.

46a
In the second petition filed in our case number 1419-00886-CV, Facebook asks this court to compel the
Honorable Mike Engelhart, presiding judge of the
151st District Court of Harris County, to set aside his
October 4, 2019 order denying Facebook’s Rule 91a
motion to dismiss.
Facebook has not established that it is entitled to
mandamus relief. Accordingly, we deny Facebook’s
petitions for writ of mandamus. We also lift our stays
issued on November 14, 2019, and November 19,
2019.
PER CURIAM
Panel consists of Justices Christopher, Spain, and
Poissant. (Christopher, J., dissenting).

47a
Petitions for Writ of Mandamus Denied and
Memorandum Majority and Dissenting Opinions filed April 28, 2020.
THE STATE OF TEXAS
In the
FOURTEENTH COURT OF APPEALS
________________________
NO. 14-19-00845-CV
NO. 14-19-00847-CV
________________________
IN RE FACEBOOK, INC. AND FACEBOOK,
INC. D/B/A INSTAGRAM, Relators
_________________________________________________
ORIGINAL PROCEEDING
WRIT OF MANDAMUS
334th District Court
Harris County, Texas
Trial Court Cause Nos. 2018-69816, 2018-82214
_________________________________________________
________________________
NO. 14-19-00886-CV
________________________
IN RE FACEBOOK INC. D/B/A INSTAGRAM,
Relator

48a
_________________________________________________
ORIGINAL PROCEEDING
WRIT OF MANDAMUS
151st District Court
Harris County, Texas
Trial Court Cause No. 2019-16262
_________________________________________________
MEMORANDUM DISSENTING OPINION
I respectfully dissent from these denials of mandamus and I urge the Texas Supreme Court to review
these cases. Federal law grants Facebook immunity
from suits such as these. See 47 U.S.C. § 230. Because
Facebook has immunity, these suits have no basis in
law, and dismissal under Texas Rule of Procedure 91a
is proper.
The Real Parties in Interest urge our court to
adopt a construction of Section 230 that has been
adopted by only a few courts. The vast majority of the
courts reviewing this law have adopted the arguments
made by Facebook. The artful pleading by the Real
Parties in Interest should not prevail over the statute.
Fewer cases discuss the 2018 amendments to Section 230 known as the Fight Online Sex Trafficking
Act of 2017 (“FOSTA”). However, this exception to immunity—on its face—does not apply to a civil action
in state court.

49a
Because Facebook has federal statutory immunity
from these suits, I respectfully dissent.
/s/

Tracy Christopher
Justice

Panel consists of Justices Christopher, Spain, and
Poissant.

50a
APPENDIX C
NO. 2018-69816*
Jane Doe

§
§
§
vs.
§
§
Facebook, Inc., et al §
§

In the District Court
of
Harris County, Texas
334th Judicial District

No. 2018-82214
Jane Doe

§
§
§
vs.
§
§
Facebook, Inc., dba §
Instagram, Inc. et al §

In the District Court
of
Harris County, Texas
334th Judicial District

Order
Defendant Facebook seeks dismissal of these two
cases pursuant to 91a of the Texas Rules of Civil Procedure. This motion is one of several procedural preliminary hurdles that the parties advise will be filed
and argued in these cases prior to full litigation of the
underlying claims. While a ruling in Facebook’s favor
may end the case for Facebook, a ruling for the Plaintiffs only allows the case to proceed to the next level.

51a
Rule 91a requires dismissal of a claim if the action
“has no basis in law or fact. A cause of action has no
basis in law if the allegations, taken as true, together
with inferences reasonably drawn from them, do not
entitle a claimant to the relief sought. A cause of action has no basis in fact if no reasonable person could
believe the facts pleaded.” Tex. R. Civ. P. 91a.1. The
Court may not consider evidence, but only the allegations in the petition and arguments of counsel in their
motions and responses. At this stage, Facebook is not
arguing the facts, but rather claims it is not liable to
the Plaintiffs because of the immunity granted internet service providers under Section 230 of the Federal
Communications Decency Act, 47 U.S.C. § 230 (the
“Act”).
47 USC§ 230(c)(1) provides: “No provider or user
of an interactive computer service shall be treated as
the publisher or speaker of any information provided
by another information content provider.” In 2018,
Congress added exclusions to this broad grant of immunity to ensure that sex trafficking laws were not
impacted. The parties debate the extent of the exclusions.
The parties do not dispute that Facebook is an interactive computer service as defined in the statute at
47 § USC 230(f)(2). The question presented to the
Court is whether the claims raised by Plaintiffs treat
Facebook as the publisher or speaker of information
provided by another.
Plaintiffs have brought causes of action sounding
in negligence, gross negligence and statutory damages under the Texas Civil Practice and Remedies

52a
Code Chapter 98, which allows for damages from persons who engage in trafficking or knowingly or intentionally benefit from such traffic. Plaintiffs contend
that Facebook facilitates and/or was used by predators to find, groom, target, recruit and kidnap children
into the sex trade. Plaintiffs allege that Facebook
profits from the collection of data and the use of the
data to target and promote interactions between Facebook users. These interactions include minors and
sexual predators. Each of the Plaintiffs are victims of
human trafficking to whom Plaintiffs contend Facebook owes a variety of duties which have been
breached leading to the Plaintiffs being victimized in
human trafficking. Plaintiffs contend they are not
seeking to impose liability for the publication of the
third party communications, but rather they seek to
impose liability for Facebook’s independent actions or
failure to act, specifically failure to warn, negligence
in undertaking to protect potential victims of sex trafficking, and for knowingly facilitating and benefiting
from the sex trade.
Facebook contends that all of Plaintiffs’ claims
turn entirely on the communications Plaintiffs had
with malicious third parties. Because Plaintiffs’ injuries are dependent on those communications, Facebook contends they are all barred by the immunity
granted internet service providers under the Act.
The language of the statute is broad and both parties have cited cases that support their positions. Facebook points to the broad grants of immunity articulated in Zeran v. America Online Inc. 129 F.3d 327
(4th Cir. 1997) (republishing defamation) and Doe v.

53a
MySpace, Inc. 528 F.3d 413 (5th Cir. 2008) (negligence-failure to implement safety measures), among
others. Plaintiffs points to the more narrow immunity
recognized in Doe v. Internet Brands, Inc., 824 F.3d
846 (9th Cir. 2016) (ISP not immune to failure to warn
claim) and Huon v. Denton, 841 F.3d 733 (7th Cir.
2016) (ISP not immune to defamation in content it
generated).
While the injuries presented in the 9th and 5th
Circuit cases are similar to those presented in this
case, the failure to warn cause of action presented in
this case mirrors that presented in the 9th Circuit
case. None of the cases deal with the statutory cause
of action pled in this case, and all of the cases predated the amendments adopted in 2018.
The few Texas cases that have addressed the issue
come out of the Beaumont Court of Appeals and none
of these deal with the same causes of action or facts
as are presented in this case. See Milo v. Martin, 311
S.W.3d 210 (Tex. App.—Beaumont 2010, no pet.) (defamation); GoDaddy.com LLC v. Toups, 429 S.W.3d
752 (Tex. App.—Beaumont 2014, pet. denied) (intentional infliction of emotional distress); and, Davis v.
Motiva Enterprises LLC, No. 09-14-00434-CV, 2015
WL 1535694 (Tex. App.—Beaumont April 2, 2015,
pet. denied) (failure to supervise employees’ internet
use).
In reviewing the statute and the cases cited by the
parties, the Court concludes that Plaintiffs have plead
causes of action that would not be barred by the immunity granted under the Act. Accordingly, Defendants’ Rule 91A Motions to Dismiss are denied.

54a

Signed:
05/23/2019 /s/Steven Kirkland
STEVEN KIRKLAND
Judge Presiding

55a
APPENDIX D
47 U.S.C.A. § 230
§ 230. Protection for private blocking and screening
of offensive material
Effective: April 11, 2018
Currentness

(a) Findings
The Congress finds the following:
(1) The rapidly developing array of Internet and
other interactive computer services available to individual Americans represent an extraordinary advance in the availability of educational and informational resources to our citizens.
(2) These services offer users a great degree of control over the information that they receive, as well
as the potential for even greater control in the future as technology develops.
(3) The Internet and other interactive computer services offer a forum for a true diversity of political
discourse, unique opportunities for cultural development, and myriad avenues for intellectual activity.
(4) The Internet and other interactive computer services have flourished, to the benefit of all Americans, with a minimum of government regulation.

56a
(5) Increasingly Americans are relying on interactive media for a variety of political, educational, cultural, and entertainment services.
(b) Policy
It is the policy of the United States-(1) to promote the continued development of the Internet and other interactive computer services and
other interactive media;
(2) to preserve the vibrant and competitive free
market that presently exists for the Internet and
other interactive computer services, unfettered by
Federal or State regulation;
(3) to encourage the development of technologies
which maximize user control over what information
is received by individuals, families, and schools who
use the Internet and other interactive computer services;
(4) to remove disincentives for the development and
utilization of blocking and filtering technologies
that empower parents to restrict their children’s access to objectionable or inappropriate online material; and
(5) to ensure vigorous enforcement of Federal criminal laws to deter and punish trafficking in obscenity, stalking, and harassment by means of computer.

57a
(c) Protection for “Good Samaritan” blocking
and screening of offensive material
(1) Treatment of publisher or speaker
No provider or user of an interactive computer service shall be treated as the publisher or speaker of
any information provided by another information
content provider.
(2) Civil liability
No provider or user of an interactive computer service shall be held liable on account of-(A) any action voluntarily taken in good faith to
restrict access to or availability of material that
the provider or user considers to be obscene, lewd,
lascivious, filthy, excessively violent, harassing, or
otherwise objectionable, whether or not such material is constitutionally protected; or
(B) any action taken to enable or make available
to information content providers or others the
technical means to restrict access to material described in paragraph (1).1
(d) Obligations of interactive computer service
A provider of interactive computer service shall, at the
time of entering an agreement with a customer for the
provision of interactive computer service and in a
manner deemed appropriate by the provider, notify
such customer that parental control protections (such
as computer hardware, software, or filtering services)

58a
are commercially available that may assist the customer in limiting access to material that is harmful to
minors. Such notice shall identify, or provide the customer with access to information identifying, current
providers of such protections.
(e) Effect on other laws
(1) No effect on criminal law
Nothing in this section shall be construed to impair
the enforcement of section 223 or 231 of this title,
chapter 71 (relating to obscenity) or 110 (relating to
sexual exploitation of children) of Title 18, or any
other Federal criminal statute.
(2) No effect on intellectual property law
Nothing in this section shall be construed to limit or
expand any law pertaining to intellectual property.
(3) State law
Nothing in this section shall be construed to prevent
any State from enforcing any State law that is consistent with this section. No cause of action may be
brought and no liability may be imposed under any
State or local law that is inconsistent with this section.
(4) No effect on communications privacy law
Nothing in this section shall be construed to limit
the application of the Electronic Communications

59a
Privacy Act of 1986 or any of the amendments made
by such Act, or any similar State law.
(5) No effect on sex trafficking law
Nothing in this section (other than subsection
(c)(2)(A)) shall be construed to impair or limit-(A) any claim in a civil action brought under section 1595 of Title 18, if the conduct underlying the
claim constitutes a violation of section 1591 of that
title;
(B) any charge in a criminal prosecution brought
under State law if the conduct underlying the
charge would constitute a violation of section 1591
of Title 18; or
(C) any charge in a criminal prosecution brought
under State law if the conduct underlying the
charge would constitute a violation of section
2421A of Title 18, and promotion or facilitation of
prostitution is illegal in the jurisdiction where the
defendant’s promotion or facilitation of prostitution was targeted.
(f) Definitions
As used in this section:
(1) Internet
The term “Internet” means the international computer network of both Federal and non-Federal interoperable packet switched data networks.

60a
(2) Interactive computer service
The term “interactive computer service” means any
information service, system, or access software provider that provides or enables computer access by
multiple users to a computer server, including specifically a service or system that provides access to
the Internet and such systems operated or services
offered by libraries or educational institutions.
(3) Information content provider
The term “information content provider” means any
person or entity that is responsible, in whole or in
part, for the creation or development of information
provided through the Internet or any other interactive computer service.
(4) Access software provider
The term “access software provider” means a provider of software (including client or server software), or enabling tools that do any one or more of
the following:
(A) filter, screen, allow, or disallow content;
(B) pick, choose, analyze, or digest content; or
(C) transmit, receive, display, forward, cache,
search, subset, organize, reorganize, or translate
content.

